<html>
<title> - H.R. 3099, ``GULF OF MEXICO RED SNAPPER CONSERVATION ACT OF 2013''</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






 
  H.R. 3099, ``GULF OF MEXICO RED SNAPPER CONSERVATION ACT OF 2013''

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE,
                       OCEANS AND INSULAR AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                       Thursday, December 4, 2014

                               __________

                           Serial No. 113-92

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
       
       
       
       


         Available via the World Wide Web: http://www.fdsys.gov

          Committee address: http://naturalresources.house.gov
          
                              ____________
                              
                              
                         U.S. GOVERNMENT PUBLISHING OFFICE
 91-743 PDF                       WASHINGTON : 2015       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                             
                              
                              
          
          


                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            PETER A. DeFAZIO, OR, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Louie Gohmert, TX                    Frank Pallone, Jr., NJ
Rob Bishop, UT                       Grace F. Napolitano, CA
Doug Lamborn, CO                     Rush Holt, NJ
Robert J. Wittman, VA                Raul M. Grijalva, AZ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Glenn Thompson, PA                       CNMI
Cynthia M. Lummis, WY                Niki Tsongas, MA
Dan Benishek, MI                     Pedro R. Pierluisi, PR
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Scott R. Tipton, CO                  Tony Cardenas, CA
Paul A. Gosar, AZ                    Jared Huffman, CA
Raul R. Labrador, ID                 Raul Ruiz, CA
Steve Southerland, II, FL            Carol Shea-Porter, NH
Bill Flores, TX                      Alan S. Lowenthal, CA
Jon Runyan, NJ                       Joe Garcia, FL
Markwayne Mullin, OK                 Matt Cartwright, PA
Steve Daines, MT                     Katherine M. Clark, MA
Kevin Cramer, ND                     Vacancy
Doug LaMalfa, CA
Jason T. Smith, MO
Vance M. McAllister, LA
Bradley Byrne, AL

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
                 Penny Dodge, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------     
                                 

              SUBCOMMITTEE ON FISHERIES, WILDLIFE, OCEANS
                          AND INSULAR AFFAIRS
                          

                       JOHN FLEMING, LA, Chairman
    GREGORIO KILILI CAMACHO SABLAN, CNMI, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Robert J. Wittman, VA                Frank Pallone, Jr., NJ
Glenn Thompson, PA                   Madeleine Z. Bordallo, GU
Jeff Duncan, SC                      Pedro R. Pierluisi, PR
Steve Southerland, II, FL            Carol Shea-Porter, NH
Bill Flores, TX                      Alan S. Lowenthal, CA
Jon Runyan, NJ                       Joe Garcia, FL
Vance M. McAllister, LA              Peter A. DeFazio, OR, ex officio
Bradley Byrne, AL
Doc Hastings, WA, ex officio
                                 ------   
                                 
                                 
                                 
                                 
                                 
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, December 4, 2014.......................     1

Statement of Members:
    Fleming, Hon. John, a Representative in Congress from the 
      State of Louisiana.........................................     1
        Prepared statement of....................................     3
    Miller, Hon. Jeff, a Representative in Congress from the 
      State of Florida...........................................     5
    Sablan, Hon. Gregorio Kilili Camacho, a Representative in 
      Congress from the Commonwealth of Northern Mariana Islands.     4

Statement of Witnesses:
    Barham, Honorable Robert J., Secretary, Louisiana Department 
      of Wildlife and Fisheries..................................    12
        Prepared statement of....................................    13
    Blankenship, Christopher, Director, Marine Resources 
      Division, Alabama Department of Conservation and Natural 
      Resources..................................................    15
        Prepared statement of....................................    17
    Cresson, David A., President and CEO, Louisiana Chapter of 
      Coastal Conservation Association...........................    34
        Prepared statement of....................................    35
    Gill, Bob, Board Member, Gulf Seafood Institute..............    36
        Prepared statement of....................................    38
    Green, Captain Jim, Vice President, Destin Charter Boat 
      Association, Gulf of Mexico Charter Fisherman..............    42
        Prepared statement of....................................    44
    Pearce, Harlon, Owner, Harlon's LA Fish, Kenner, Louisiana...    45
        Prepared statement of....................................    47
    Rauch, Samuel D., III, Deputy Assistant Administrator for 
      Regulatory Programs, National Marine Fisheries Service, 
      National Oceanic and Atmospheric Administration............     6
        Prepared statement of....................................     8

Additional Materials Submitted for the Record:
    American Sportfishing Association, Mike Leonard, Ocean 
      Resource Policy Director, December 2, 2014 Letter submitted 
      for the record in support of H.R. 3099.....................    61
    Congressional Sportsmen's Foundation, Jeff Crane, President, 
      December 1, 2014 Letter submitted for the record in support 
      of H.R. 3099...............................................    61
    Group of Commercial Fishermen, December 3, 2014 Letter 
      submitted for the record in opposition of H.R. 3099........    62
    List of documents submitted for the record retained in the 
      Committee's official files.................................    63




 LEGISLATIVE HEARING ON H.R. 3099, TO PROVIDE FOR THE DEVELOPMENT OF A 
  FISHERY MANAGEMENT PLAN FOR THE GULF OF MEXICO RED SNAPPER, AND FOR 
OTHER PURPOSES, ``GULF OF MEXICO RED SNAPPER CONSERVATION ACT OF 2013''

                              ----------                              


                       Thursday, December 4, 2014

                     U.S. House of Representatives

    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 1324, Longworth House Office Building, Hon. John Fleming 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Fleming, Duncan, Southerland, 
Byrne, Sablan, and Garcia.
    Also present: Representative Jolly.

    STATEMENT OF THE HON. JOHN FLEMING, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Fleming. The subcommittee will come to order. The 
Chairman notes the presence of a quorum.
    Good morning. Today the subcommittee will conduct a hearing 
on H.R. 3099, the Gulf of Mexico Red Snapper Conservation Act 
of 2013.
    As I am sure everyone in this room will agree, the Gulf of 
Mexico Red Snapper fishery is a mess. This is a fishery that is 
an economic driver for many coastal communities. It is a very 
popular sport fish for recreational fishermen and supports a 
valuable commercial fishery. In fact, this fishery once 
supported a 180-day recreational season, and while it is 
currently under a rebuilding plan, both fishermen and NOAA 
agree that the fishery is rebuilding beyond expectations.
    Despite this rebuilding success, the recreational seasons 
have been dramatically shortened, leading to only a 9-day 
season in 2014. This increasingly shortened recreational season 
has had serious consequences for our coastal communities and, 
in particular, for recreational fishermen. I can certainly 
understand how recreational fishermen are frustrated. We have a 
stock survey system that appears to ignore key areas where red 
snapper are known to live, and we have a recreational data 
collection program that not only doesn't work but is now going 
to undergo yet another revision.
    As we have heard at a number of hearings on this 
reauthorization of the Magnuson-Stevens Act, the Federal 
recreational data collections program has been repeatedly 
called into question. Two states now have undertaken their own 
recreational data collection programs, and both have been able 
to collect more accurate information and have highlighted the 
shortcomings in the Federal recreational data collection 
program.
    Added to that mix we had a court ruling calling into 
question some of the basic provisions of the Federal fishery 
management system. With this as a backdrop, I want to thank 
Congressman Miller for his legislation that attempts to address 
these problems. I know H.R. 3099, the Gulf of Mexico Red 
Snapper Conservation Act of 2013, has raised some concerns 
within the various sectors of the Gulf of Mexico fishery 
industry, and I know we will hear some of these concerns today, 
but I am glad this legislation will allow us to have this 
dialog. Hopefully, it will lead to some creative solutions.
    H.R. 3099 would transfer management of the red snapper 
fishery from the Gulf of Mexico Fishery Management Council to 
the Gulf States Marine Fisheries Commission. Supporters of this 
legislation have cited several examples of other fisheries that 
have benefited from moving them from Federal management to 
state management.
    As you know, many of the members of this committee support 
the notion that states can manage their natural resources more 
effectively than the Federal Government can. However, there are 
a number of issues that will probably be raised here today that 
we need to consider.
    One of the most perplexing will be the question of how we 
fund this new authority for the Commission.
    A second concern is whether the Commission will be 
susceptible to an increase in lawsuits.
    And a third is how the Gulf states and the Federal 
Government will enforce a new management regime.
    These are concerns that we must be aware of, but through 
the hearings we have held in the past, it is clear that there 
needs to be more flexibility in how states can manage red 
snapper, and it is clear that the Gulf states need to be more 
actively involved in the management.
    The Gulf of Mexico Fishery Management Council has been 
debating several amendments to the Reef Fish Fishery Management 
Plan to deal specifically with red snapper issues. The Council 
recently adopted a controversial sector separation plan that 
will split the recreational sector into a for-hire component 
and a private angle component.
    The Council is also debating a plan to reallocate fish from 
the commercial sector to the recreational sector.
    Finally, and probably most important to the discussion 
today, the Council is working on a regional management scheme 
that will give each of the Gulf states the ability to manage 
red snapper within state waters in a way that benefits their 
fishermen. I suspect some of today's witnesses will give us 
more information on these amendments and how they relate to the 
legislation before us.
    As Members know, this is not the first hearing we have held 
on these issues and will likely not be the last hearing on how 
to improve the management of this important fishery.
    I am now pleased to recognize the Ranking Member, the 
distinguished gentleman from the Commonwealth of Northern 
Mariana Islands for any statement he would like to make.
    [The prepared statement of Mr. Fleming follows:]
Prepared Statement of the Hon. John Fleming, Chairman, Subcommittee on 
            Fisheries, Wildlife, Oceans and Insular Affairs
    Good morning. Today, the subcommittee will conduct a hearing on 
H.R. 3099, the Gulf of Mexico Red Snapper Conservation Act of 2013.
    As I'm sure everyone in this room will agree, the Gulf of Mexico 
red snapper fishery is a mess.
    This is a fishery that is an economic driver for many coastal 
communities, is a very popular sport fish for recreational fishermen, 
and supports a valuable commercial fishery. In fact, this fishery once 
supported a l80-day recreational season and, while it is currently 
under a rebuilding plan, both fishermen and NOAA agree that the fishery 
is rebuilding beyond expectations. Despite this rebuilding success, the 
recreational seasons have been drastically shortened--leading to only a 
9-day season in 2014. This increasingly shortened recreational season 
has had serious consequences for our coast communities and in 
particular for recreational fishermen.
    I can certainly understand how recreational fishermen are 
frustrated. We have a stock survey system that appears to ignore key 
areas where red snapper are known to live and we have a recreational 
data collection program that not only doesn't work, but is now going to 
undergo yet another revision.
    As we have heard at a number of hearings on the reauthorization of 
the Magnuson-Stevens Act, the Federal recreational data collection 
program has been repeatedly called into question. Two states have now 
undertaken their own recreational data collection programs and both 
have been able to collect more accurate information and have 
highlighted the shortcomings in the Federal recreational data 
collection program.
    Added to that mix, we have had a court ruling calling into question 
some of the basic provisions of the Federal fishery management system.
    With this as a backdrop, I want to thank Congressman Miller for his 
legislation that attempts to address these problems. I know H.R. 3099, 
the Gulf of Mexico Red Snapper Conservation Act of 20l3, has raised 
some concerns within the various sectors of the Gulf of Mexico fishing 
industry, and I know we will hear some of those concerns today, but I 
am glad this legislation will allow us to have this dialog. Hopefully 
it will lead to some creative solutions.
    H.R. 3099 would transfer management of the red snapper fishery from 
the Gulf of Mexico Fishery Management Council to the Gulf States Marine 
Fisheries Commission. Supporters of the legislation have cited several 
examples of other fisheries that have benefited from moving them from 
Federal management to state management. As you know, many of the 
members of this committee support the notion that states can manage 
their natural resources more effectively than the Federal Government 
can.
    However, there are a number of issues that will probably be raised 
here today that we need to consider. One of the most perplexing will be 
the question of how we fund this new authority for the Commission. A 
second concern is whether the Commission will be susceptible to an 
increase in lawsuits. And a third is how the Gulf states and the 
Federal Government will enforce a new management regime.
    These are concerns that we must be aware of, but through the 
hearings we have held in the past, it is clear that there needs to be 
more flexibility in how states can manage red snapper and it is clear 
that the Gulf states need to be more actively involved in the 
management.
    The Gulf of Mexico Fishery Management Council has been debating 
several amendments to the Reef Fish Fishery Management Plan to deal 
specifically with red snapper issues. The Council recently adopted a 
controversial sector separation plan that will split the recreational 
sector into a for-hire component and a private angle component. The 
Council is also debating a plan to reallocate fish from the commercial 
sector to the recreational sector. Finally, and probably most important 
to the discussion today, the Council is working on a regional 
management scheme that will give each of the Gulf states the ability to 
manage red snapper within state waters in a way that benefits their 
fishermen. I suspect some of today's witnesses will give us more 
information on these amendments and how they relate to the legislation 
before us.
    As Members know, this is not the first hearing we have held on 
these issues and will likely not be the last hearing on how to improve 
the management of this important fishery.

                                 ______
                                 

    STATEMENT OF THE HON. GREGORIO KILILI CAMACHO SABLAN, A 
 REPRESENTATIVE IN CONGRESS FROM THE COMMONWEALTH OF NORTHERN 
                        MARIANA ISLANDS

    Mr. Sablan. Thank you very much, Mr. Chairman, and I would 
like to also note that you are correct; this has been a series 
of hearings we have had on red snappers. So I am beginning to 
be much more well informed about it, and I actually told my 
staff if we have one more hearing for red snapper, and then Mr. 
Miller's bill came up, and I said that is all right. It is Mr. 
Miller's bill. So we will spend time.
    But the bill attempts to actually have Congress provide for 
the development of a fisheries management plan for the Gulf of 
Mexico red snapper, and as I understand it, the Magnuson-
Stevens Act established the regional councils to prevent 
politicians in Washington from dictating how local fisheries 
are managed. It seems that we are considering a bill that would 
replace the judgment of fishery stakeholders for that of the 
House of Representatives.
    We have heard a lot about the difficulties faced by red 
snapper fishermen in the Gulf of Mexico this Congress, and I am 
sympathetic to the frustration felt by anglers who have seen 
recreational seasons shortened while the stock shows early 
signs of recovery. Unfortunately, unrestricted access, 
increasing fishing pressure, and skyrocketing harvest rates in 
the recreational fisheries have slowed this recovery and risk a 
return to the severe overfishing that ended just 5 years ago.
    So it is important to remember that the Gulf red snapper 
fishery is only 10 years into a 27-year rebuilding plan, and 
the most recent stock assessment data indicates that the 
spawning potential is still only 10 percent, which is less than 
half of the rebuilt target of 26 percent. So, while there are 
signs that the rebuilding plan is working, there is still a 
long way to go before this stock is healthy.
    In the meantime, the Gulf Council is already taking steps 
to improve access and accountability in the recreational 
sector. This includes taking final action on a provisional 
separation of the recreational sector into for-hire and private 
angler components to allow for greater flexibility in how the 
quota is managed.
    In addition, at its January meeting, the Council will be 
considering the final action on Amendment 39 to the Reef Fish 
Management Plan, which explores a range of options for 
implementing regional management for the recreational harvest 
of red snapper, including delegating limited management 
authority to the Gulf states to establish individual size 
limits, bag limits, seasons, and area closures in Federal 
waters.
    I am interested to learn what our expert witnesses think 
about the Council's recent efforts and to hear their ideas for 
other management action that should be taken to rebuild the 
stock, improve accountability, and ensure equitable access in 
the recreational fishery.
    And I want to thank all of you for joining us this morning, 
and I look forward to hearing from the witnesses.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Fleming. The Ranking Member yields back.
    At this time, I would like to ask unanimous consent that 
the gentleman from Florida, Congressman David Jolly be allowed 
to sit with this subcommittee and participate in the hearing.
    Hearing no objections, so ordered.
    We will now hear from our first panel, the author of H.R. 
3099, Congressman Jeff Miller, our friend and colleague from 
the First District of Florida.

STATEMENT OF THE HON. JEFF MILLER, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mr. Miller. Thank the Chairman and the Ranking Member, and 
I do thank all the members of the subcommittee for holding this 
hearing this morning. I appreciate the chance to appear before 
you today on what I, and many of my constituents who continue 
to voice their concerns, consider to be been an issue of 
critical importance, and that is the management of the Gulf red 
snapper.
    With the fishery more robust than it ever has been before, 
one would think that private anglers and the for-hire 
businesses would be elated with the overall management of the 
resource, but we all know that that is just simply not the 
case.
    As a result of the current Federal management of Gulf red 
snapper, we witnessed, as has already been stated, lawsuit 
after lawsuit while anglers continue to be hit with the 
shortest recreational seasons on record.
    Furthermore, the failed management has done significant 
economic harm to communities along the Gulf Coast who rely on 
the billions of dollars that anglers spend on an annual basis. 
As a result, I continually hear from stakeholders in my 
district and across the Gulf Coast who justifiably call for 
reforms to the Gulf Red Snapper Management Program.
    Now, by simply continuing to shorten the Federal season for 
the recreational sector, which, in Florida, was 9 days this 
year, without addressing the failed management of the fishery, 
the Federal Government continues to kick the can down the road 
at the expense--really, the expense of the entire angling 
community, tragically affecting the livelihoods in coastal 
communities that depend on the fishery.
    Along with 20 bipartisan colleagues, I introduced H.R. 
3099, the Gulf of Mexico Red Snapper Conservation Act, because 
I believe that congressional action is needed to chart a new 
course for management of Gulf red snapper for the betterment of 
the commercial and recreational fisheries and the entire 
economic region. I believe that placing stewardship of this 
important resource in the hands of state authorities who are 
best positioned to collaborate with local stakeholders to 
institute a successful management plan that works for Gulf 
Coast residents, anglers and the red snapper alike, is, at the 
very least, a step in the right direction.
    While some here may not agree with certain provisions of 
this bill, I do hope that we can all agree on the fact that 
something must be done to address the valid concerns that have 
been raised by many along the Gulf Coast.
    I, again, offer my thanks to the Chairman and the Ranking 
Member, all the members of this committee and those that are 
not on this subcommittee that have come here today to highlight 
the importance of this particular issue. This is a discussion 
that has to take place, and it is my hope that today's hearing 
on H.R. 3099 will yield positive results and underscore the 
urgent need for a change in Gulf red snapper management.
    With that, Mr. Chairman, I yield back.
    Mr. Fleming. Well, we thank you, Mr. Miller. And we know 
that you have plenty of duties apart from your time here. So we 
will certainly excuse you for the remainder of the hearing, 
unless you would like to stay, we would be glad to have you.
    Also a note, we expect a vote probably in the next 15 
minutes. So we will try to get through our second panel 
testimony, and that way we will be able to return for 
questions.
    So thank you, Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman.
    Mr. Fleming. We will ask the second panel to step forward.
    We are now ready for our second panel, which includes Mr. 
Samuel D. Rauch III, Deputy Assistant Administrator for 
Regulatory Programs, National Marine Fisheries Service, 
National Oceanic and Atmospheric Administration; The Honorable 
Robert J. Barham, Secretary of the Louisiana Department of 
Wildlife and Fisheries; and Mr. Christopher Blankenship, 
Director of Marine Resources Division, Alabama Department of 
Conservation and Natural Resources.
    Your testimony will appear in full in the hearing record, 
so I ask that you keep your oral statements to 5 minutes, as 
outlined in our invitation letter to you under Committee Rule 
4(a). Our microphones are not automatic, so please press the 
button and be sure the tip is close to your mouth, and the way 
the lights work, you all are pretty experienced at this, I am 
sure, but, basically, you are under a green light for the first 
4 minutes. Then it turns yellow, and then when it turns red at 
the end of 5 minutes, we ask that you quickly finish your 
statement so we can move on. We have plenty to cover here today 
and a lot of questions.
    Mr. Rauch, you are now recognized for 5 minutes to present 
testimony on H.R. 3099.

      STATEMENT OF SAMUEL D. RAUCH III, DEPUTY ASSISTANT 
    ADMINISTRATOR FOR REGULATORY PROGRAMS, NATIONAL MARINE 
      FISHERIES SERVICE, NATIONAL OCEANIC AND ATMOSPHERIC 
                         ADMINISTRATION

    Mr. Rauch. Good morning, Chairman Fleming, Ranking Member 
Sablan, members of the subcommittee. Thank you for the 
opportunity to testify today.
    My name is Sam Rauch. I am the Deputy Director of the 
National Marine Fishery Service or NMFS. The Administration 
does not have an official position on H.R. 3099, but I do want 
to talk about the underlying issues and how NMFS and the Gulf 
Council are working to address red snapper management.
    The Gulf Council implemented the first red snapper 
rebuilding plan in 1990 but has modified the plan several times 
in response to new scientific information. The current red 
snapper rebuilding plan was designed to phase out overfishing 
between 2009 and 2010 and to rebuild the population by 2032.
    The 2009 assessment update and the most current assessment 
completed in 2013 indicated that we have ended overfishing and 
there are more red snapper in the Gulf of Mexico today than 
there have been in decades.
    Many Gulf of Mexico red snapper fishermen echo the 
assessment findings, saying that they are seeing more and 
larger red snapper than they have ever seen in their lifetime.
    The recreational red snapper quota in 2013 and 2014 was set 
at the highest level in history of managing the fishery; 20 
percent greater than the next highest quota level on record. 
And recreational landings in 2013 were the highest in recent 
history. In addition, each fish weighs more than twice as much 
as before. Fishermen on the west coast of Florida now have new 
opportunities to target this popular species as the population 
expands back to its historic range. After decades of 
overfishing, the population was concentrated in offshore waters 
of the northern Gulf of Mexico, but now catch data indicate 
that red snapper landings are increasing both closer to shore 
and along the west coast of Florida, with some fishermen 
reporting landings as far south as the Florida Keys.
    I would like to highlight the three main components of the 
Gulf of Mexico Red Snapper Management.
    First, the commercial sector, which is managed by an 
individual fishing quota or an IFQ program; second, the 
recreational sector, which we will talk more about, and it 
includes both the for-hire, the charter fleet and private 
anglers; and third, which is an important component, but there 
is an incidental bycatch in the commercial shrimp trawlers of 
juvenile red snapper. This has been an important three-part 
management structure that we have dealt with over the years.
    In 2007, the commercial red snapper sector moved to the IFQ 
program. This program allocates participating fishermen a 
percentage of the commercial annual catch limit based on their 
landings history, and the program has been a success. The 
average ex-vessel price of red snapper in 2013 was a third 
higher than before the program was implemented. IFQ 
participants are now targeting red snapper year round, and the 
fishery is reportedly safer than ever before.
    Despite these improvements, the current assessment 
indicates that rebuilding is not yet complete. There is a new 
red snapper assessment under way, which will provide additional 
information on the status of the population relative to the 
rebuilding target. This assessment will be completed and 
presented to the Gulf Council early next year.
    The Gulf Council has been considering a regional management 
strategy, which would provide the states greater flexibility to 
tailor recreational red snapper management to the local needs 
and objectives while meeting the Gulf-wide conservation goals.
    At the Federal Government, we support regional management 
structures as a way to resolve the current challenges created 
by inconsistent state jurisdictions and regulations. Regional 
management would also stabilize the recreational sector, better 
manage the expectations of for-hire fishermen and private 
anglers.
    Interstate management challenges, though, are not unique to 
the Gulf of Mexico, and, in fact, they are present in every 
region where major fisheries span multiple state jurisdictions. 
Such challenges have been addressed in different regions in 
different ways. For example, through legislation authorizing 
the Atlantic States Marine Fisheries Commission as a 
coordinating body on the East Coast, they have been able to 
manage the summer flounder with many similarities to the 
current red snapper stock.
    While there are a number of models that may work, each 
requires the collective involvement and support of the states 
and full accountability to comply with the agreed-upon 
management strategies.
    NMFS believes that the hallmark of any successful regional 
management strategy for red snapper would include fair and 
equitable allocation amongst all the states and user groups; 
sound science-based decisionmaking that accounts for all 
sources of fishing mortality, both commercial and recreational; 
and recognizing that managing the shrimp trawl bycatch of red 
snapper is a critical component of the red snapper rebuilding 
plan; coordinated data collection systems which provide 
consistent, reliable, and comparable data between states; and 
catch accountability, including mechanisms to prevent and 
respond to quota overages within individual states.
    In conclusion, we have made great progress toward 
rebuilding the Gulf of Mexico red snapper population, but this 
progress has not come easily, nor will it be sustained without 
continued attention. It is a critical time in the history of 
red snapper management, and we must ensure that all aspects of 
this fishery are able to meet the needs of both current and 
future generations.
    Thank you again for the opportunity to testify before you 
today, and I am available to answer questions that you may 
have.
    Mr. Fleming. Thank you, Mr. Rauch.
    [The prepared statement of Mr. Rauch follows:]
      Prepared Statement of Samuel D. Rauch III, Deputy Assistant 
   Administrator for Regulatory Programs, National Marine Fisheries 
    Service, National Oceanic and Atmospheric Administration, U.S. 
                         Department of Commerce
                              introduction
    Good morning Chairman and members of the subcommittee. I appreciate 
the opportunity to speak with you today about red snapper management in 
the Gulf of Mexico. My name is Sam Rauch and I am the Deputy Assistant 
Administrator for Regulatory Programs at the National Marine Fisheries 
Service (NMFS) within the National Oceanic and Atmospheric 
Administration (NOAA) of the U.S. Department of Commerce (DOC). From 
daily weather forecasts, severe storm warnings, and climate monitoring 
to fishery management, coastal restoration, and supporting marine 
commerce, NOAA's products and services support economic vitality and 
affect more than one-third of America's gross domestic product. NOAA's 
dedicated scientists use cutting-edge research and high-tech 
instrumentation to provide citizens, planners, emergency managers, and 
other decisionmakers with reliable information they need when they need 
it.

    Today, I will describe the current status of red snapper in the 
Gulf of Mexico and the benefits fishermen and fishing communities are 
realizing from rebuilding efforts, as well as the ongoing challenges we 
face in ensuring those benefits are equitably distributed between all 
user groups. Also, I will describe the status of the Gulf of Mexico 
Fishery Management Council's (Gulf Council) work to develop a regional 
management strategy for the recreational sector and NMFS' views on the 
hallmarks of a successful regional management strategy.
                      historical population trends
    Fishermen have harvested red snapper from the Gulf of Mexico since 
the mid-1800s, more than a century before the first Federal fishery 
management measures were established in 1984. Currently, this species 
is one of the most popular and studied in the Gulf of Mexico, and NMFS 
has conducted 10 population assessments since the late 1980s. The first 
assessment, conducted in 1988, concluded the population was overfished 
and undergoing overfishing, meaning there were too few fish in the 
water to maximize catches over the long term and fish continued to be 
removed from the population at too high a rate. Six assessments 
conducted in the 1990s confirmed that conclusion, suggesting 
conservation measures such as minimum size limits, commercial trip 
limits, and daily recreational bag limits implemented to end 
overfishing and rebuild the population, as required by the Magnuson-
Stevens Fishery Conservation and Management Act (Magnuson-Stevens Act; 
P.L. 94-265) were not sufficient. A congressionally mandated 
independent peer review of the scientific and management basis for red 
snapper management, completed in 1997, also echoed these findings.
                      status of rebuilding efforts
    The Gulf Council implemented the first red snapper rebuilding plan 
in 1990, but has modified the rebuilding schedule and goals several 
times in response to new scientific information. A rebuilding plan is a 
strategy used to manage catch levels over a specified time period so 
that an overfished population can increase in size to a target level.

    The current red snapper rebuilding plan was designed to phase out 
overfishing between 2009 and 2010 and rebuild the population by 2032. 
The time frame to rebuild overfished populations varies depending on 
the status and biology of the overfished species. The red snapper 
rebuilding schedule is lengthy because red snapper is a long-lived 
species, reaching more than 50 years of age, and was severely 
overfished for many decades.

    Substantial changes to the plan, as implemented in 2007, were 
informed by a 2005 population assessment and followed a court ruling on 
a lawsuit filed by the Coastal Conservation Association, Ocean 
Conservancy, and Gulf Restoration Network, who found previous 
rebuilding measures to be insufficient to rebuild the population on 
schedule. These changes reduced the combined (commercial and 
recreational) red snapper catch limit by 45 percent from 9.12 million 
pounds to 5.0 million pounds; reduced the recreational bag limit from 
four to two fish to slow the rate of catch; reduced the commercial 
minimum size limit from 15 inches total length to 13 inches total 
length to reduce regulatory discards in that fishery; and specified a 
maximum level for shrimp fishing effort which, if exceeded, would 
trigger area closures to minimize the incidental take of red snapper in 
shrimp trawls.

    Also in 2007 the commercial red snapper sector moved to an 
individual fishing quota program (IFQ), which allocates participating 
fishermen a percentage of the commercial annual catch limit based on 
their landings history. The IFQ program is intended and has been 
demonstrated to better align the capacity of the fleet with the 
commercial catch limit, to mitigate short fishing seasons, improve 
safety at sea and increase the profitability of the commercial red 
snapper sector. Participation in the commercial red snapper fishery, 
measured by the number of accounts holding red snapper IFQ shares, has 
declined by about 28 percent since the program was implemented. 
However, the average ex-vessel price of red snapper in 2013 was 33 
percent higher than the price prior to instituting the IFQ (inflation 
adjusted, 2002-2006). Also, IFQ participants are now targeting red 
snapper year round, and the fishery is reportedly safer than it used to 
be when fishermen were required to compete for the catch during very 
limited season openings.

    There is clear evidence the rebuilding measures implemented in 2007 
are paying off. The 2009 assessment update and the current assessment 
completed in 2013 indicate we ended overfishing and there are more red 
snapper in the Gulf of Mexico today than in decades. According to the 
current assessment, the total biomass of the population has more than 
doubled in the last 5 years. The biomass of the Gulf of Mexico red 
snapper population is estimated to have reached 60 million metric tons 
in 2014, which is more than half of the rebuilding target (Figure 1).

    Many Gulf of Mexico fishermen echo the assessment findings, saying 
they are seeing more and larger red snapper than they have seen in 
their lifetime. The recreational red snapper quota in 2013 and 2014 was 
set at the highest level in the history of managing the red snapper 
fishery (20 percent greater than the next highest quota level on 
record). Recreational landings in 2013 were the highest in recent 
history. In addition, each fish weighs more than twice as much as 
before. Also, fishermen on the west coast of Florida now have new 
opportunities to target this popular species as the population expands 
back to its historic range. After decades of overfishing, the 
population was concentrated in offshore waters of the northern Gulf of 
Mexico. Now, catch data indicate red snapper landings are increasing 
both closer to shore and along the west coast of Florida, with some 
fishermen reporting landings as far south as the Florida Keys.

    Despite these remarkable improvements, the current assessment 
indicates rebuilding is not yet complete because the overall biomass 
and reproductive potential of the red snapper population have not yet 
reached the rebuilding target. There is a new red snapper update 
assessment underway, which will provide additional information on the 
status of the population relative to the rebuilding target. That 
assessment will be completed and presented to the Gulf Council early 
next year.
                         management challenges
    While fishermen, fishery managers and scientists all agree the red 
snapper population is making a remarkable recovery, there is also 
widespread agreement there are real challenges in the fishery in terms 
of ensuring rebuilding benefits are fairly and equitably distributed 
among all user groups.

    NMFS has increased the combined (commercial and recreational) catch 
limit each year since overfishing ended in 2009 and, since 2013, the 
catch limit has been the highest ever specified for this fishery--11 
million pounds. The commercial sector is flourishing at that limit 
under the IFQ program. Unfortunately, the recreational sector is not 
sharing the same benefits of stock recovery.

    Higher catch rates and larger fish, while improving recreational 
fishing experiences and opportunities, are causing the recreational 
sector to reach its catch limit much more quickly. As a result, higher 
catch limits have not translated into increased fishing days for 
recreational fishermen. The recreational red snapper catch limit 
increased by 62 percent from 2008-2012 compared to a 148 percent 
increase in recreational landings per day during that same time period. 
As a result, the recreational season has been progressively shortened 
to prevent catch limit overages, in compliance with the Magnuson-
Stevens Act.

    Recreational fishermen are understandably frustrated by this 
unexpected trend, which has been exacerbated by state jurisdictional 
and regulatory inconsistencies. The Federal recreational fishing season 
length is further reduced when Gulf Coast states implement less 
restrictive red snapper regulations in state waters because both 
catches from both state and Federal waters must be counted against the 
catch limit. Such state actions also create inequities because not all 
fishermen benefit equally from less restrictive state water 
regulations.

    In response, the Gulf Council set the 2014 recreational red snapper 
catch target 20 percent below the limit to reduce the likelihood of an 
overage this year. This action, along with extended state-water fishing 
seasons and other impacts of the litigation, effectively reduced the 
2014 Federal recreational red snapper fishing season from 40 days to 9 
days--the shortest ever. Preliminary 2014 catch data indicate 
recreational catches were below the quota for the first time in many 
years.
                           management options
    The Gulf Council recently approved a new fishery management plan 
amendment which, if implemented, would enable them to manage the 
private and federally permitted for-hire components of the recreational 
red snapper sector for different objectives for a 3-year trial period. 
For-hire fishermen are working with the Gulf Council to explore new 
tools to increase their catch accounting, stabilize their business 
operations, and improve their economic viability. However, developing 
solutions for the open access, private angler component of the 
recreational sector is more challenging and will require a broad shared 
vision of expectations and needs.

    The Gulf Council is actively working through its state agency 
representatives, fishermen and other stakeholders to identify shared 
goals and develop management options that more equitably distribute 
rebuilding benefits. These options include reallocating some portion of 
future catch limit increases to the recreational fishery to achieve a 
more stable fishing season and provide recreational fishermen a greater 
opportunity to benefit from rebuilding progress. Also, they include a 
regional management strategy, which would provide the states greater 
flexibility to tailor recreational red snapper management to local 
needs and objectives while meeting Gulf-wide conservation goals.

    All Gulf Coast states have expressed some form of support for a 
regional management strategy, but have had some difficulty coming to 
agreement on a fair and equitable methodology for allocating the 
recreational red snapper quota among the states. As a result, the Gulf 
Council has not yet finalized a specific regional management strategy 
for review and implementation by the Secretary of Commerce. However, 
during its October 2014 meeting, the Gulf Council identified a 
preliminary preferred state-specific allocation methodology and 
requested additional analyses and process options to review at its 
January 2015 meeting. NMFS is committed to continuing to support the 
Gulf Council's efforts to finalize this plan over the next year.

    NMFS supports regional management in concept as a way to resolve 
the current challenges created by inconsistent state jurisdictions and 
regulations, stabilize the recreational sector, and better manage the 
expectations of for-hire fishermen and private anglers. Interstate 
management challenges are not unique to the Gulf of Mexico. In fact, 
they are present in every region where major fisheries span multiple 
state jurisdictions. Such challenges have been addressed in different 
regions in different ways; for example, through legislation authorizing 
the Atlantic States Marine Fisheries Commission as a coordinating body 
on the U.S. East Coast. While there are any number of models that may 
work, each requires the collective involvement and support of the 
states, and full accountability to comply with agreed upon management 
strategies.

    NMFS believes the hallmarks of a successful regional management 
strategy for red snapper include:

    <bullet> Fair and equitable allocations among all of the states and 
            user groups;

    <bullet> Sound, science-based decisionmaking that accounts for all 
            sources of fishing mortality, recognizing that limiting 
            shrimp trawl bycatch of red snapper is a critical component 
            of the red snapper rebuilding plan;

    <bullet> Coordinated data collection systems, which provide 
            consistent, reliable data; and

    <bullet> Catch accountability, including mechanisms to prevent and 
            respond to quota overages.

                               conclusion
    We have made great progress toward rebuilding the Gulf of Mexico 
red snapper population. But this progress has not come easily, nor will 
it be sustained without continued attention. This is a critical time in 
the history of red snapper management, and we must ensure the fishery 
is able to meet the needs of both current and future generations. We 
must continue the achievements we have gained in the commercial fishery 
while improving stability, accountability, and predictability to the 
recreational fishery.

    We must not lose sight of the fact that the current management 
challenges are a function of success. The red snapper population is 
rebuilding and that is a good thing. Now we need to make some reasoned, 
thoughtful decisions about how to best distribute the hard-earned 
benefits provided by this growing population.

    Gulf of Mexico fishermen and fishing communities sacrificed a great 
deal to get us here. It is critical that all involved remain engaged 
and work together to find a way forward in the cooperative spirit that 
the regional fishery management council process promotes.

    Thank you again for the opportunity to discuss Gulf of Mexico red 
snapper management. I am available to answer any questions you may 
have.

Figure 1. Historical and projected trends in Gulf of Mexico red snapper 
                                biomass.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 

    Mr. Fleming. Next we have Secretary Barham. You are now 
recognized, sir, for 5 minutes.

    STATEMENT OF THE HONORABLE ROBERT J. BARHAM, SECRETARY, 
         LOUISIANA DEPARTMENT OF WILDLIFE AND FISHERIES

    Mr. Barham. Mr. Chairman and Members, thank you very much 
for the opportunity to come today.
    In Louisiana, it became clear to us that the system as it 
exists was a failure. Last year, as you pointed out, in the 
face of fishermen going out in the Gulf and finding more red 
snapper and bigger red snapper than they had ever seen before, 
to the point that you cannot catch anything else but red 
snapper in a lot of locations where you go fish, we were 
notified that we were going to have 9 days for recreational 
fishing. It was a point where we threw up our hands and said, 
``This is a total failure; we've got to do something 
different.'' So we, in Louisiana, along with all the other 
states, went noncompliant.
    Well, if you have a system where the people who are 
participating in it, in essence, are revolting from the system, 
you certainly need to take a look.
    H.R. 3099 does address that. We have to make a change. We 
know that we can manage our fisheries much better than it can 
be managed from elsewhere. I have complete confidence all of my 
fellow directors and secretaries and commissions will do a much 
better job than what we have in place.
    We are not the only one that took that position. In Federal 
court last year, in a suit along with the state of Texas, a 
Federal court ruled that the system of management that exists 
today with National Marine Fisheries' guidance guided by the 
MRIP numbers is an absolute failure.
    The numbers that we can provide are so much more extensive 
and accurate than what they have. We get a very clear picture.
    Because we were noncompliant--or I won't presume to know 
everything--they pulled our money for monitoring. Well, the 
fishermen in Louisiana banded together, and we passed what is 
called the LA Creel program, where our fisherman are paying for 
the monitoring. I am going into my 8th year as Secretary of the 
Department. It is the only fee increase that I am aware of that 
has passed through the legislature in 7 years, and that is 
because the fishermen have such confidence that we can manage 
that fishery, we will do a better job, and it is because of the 
extensive amount of sampling we do.
    We do more than 20 times the amount of actual fish 
measurement. We do nearly 50 times the interviews and the 
follow-up contacts with the fishermen who are catching these 
red snapper. So we have a much more extensive program.
    Now, I will say, in H.R. 3099, there is also the oversight. 
We recognize that there needs to be an oversight provision and 
that we need to keep an eye--the Feds need to keep an eye on 
everyone to be sure that there is a third party, if you will, 
overseeing the states. That is a great plan and another strong 
point of this bill.
    Mr. Chairman, I won't take the full 5 minutes. I will 
summarize. You have my more extensive statement you can all 
read. What I will tell you is, the states can do a better job 
in managing this fishery than the system we have in place 
today.
    And I am certainly available for questions.
    Mr. Fleming. Thank you, Mr. Barham, Secretary Barham, and 
certainly it is amazing, really, just how far off we are on 
this. The stories I hear about catching limits within 15 
minutes. So thank you for your valuable information.
    [The prepared statement of Mr. Barham follows:]
Prepared Statement of Robert J. Barham, Secretary, Louisiana Department 
                       of Wildlife and Fisheries
    Thank you Mr. Chairman for the opportunity to speak on behalf of 
Louisiana's fishing community before the U.S. House of Representatives' 
Committee on Natural Resources, Subcommittee on Fisheries, Wildlife, 
Oceans, and Insular Affairs to present information on H.R. 3099, the 
Gulf of Mexico Red Snapper Conservation Act of 2013. Red Snapper is an 
iconic American fish, extremely popular with both commercial and 
recreational fishermen, especially in Louisiana and the other Gulf 
states.
    Commercial and recreational fishing have been vital to Louisiana's 
economy and culture for hundreds of years. Today in Louisiana, nearly a 
million saltwater anglers catch fish for sport and 13,000 licensed 
commercial fishermen harvest seafood for a living--both form the 
backbone of Louisiana's fishing industry that generates a multitude of 
jobs and pumps billions of dollars into our economy. Our fisheries 
resources are important to both our fishing industry and coastal 
communities because of the socioeconomic benefits they provide.
    Through the Magnuson-Stevens Fishery Conservation and Management 
Act of 1976, Congress established the Gulf of Mexico Fishery Management 
Council (along with seven other regional councils) to conserve and 
manage these valuable resources and develop and monitor fishery 
management plans that provide for their best use. Congress 
intentionally made the councils regional to allow fishery management to 
better respond to a region's unique environment and the needs of its 
constituents.
    Unfortunately, with respect to Red Snapper, the Gulf Council is no 
longer doing the job you, as Congress, gave them nearly 40 years ago. 
While measures taken to date to stop overfishing and rebuild the Red 
Snapper resource have been successful, management has reached an 
impasse, especially for the recreational fishery. While there are more 
and more Red Snapper and they are growing larger and larger, the 
recreational fishing season keeps getting shorter because the Gulf 
Council continues to use mediocre data to support inflexible management 
of this fishery. This fishery is no longer socioeconomically 
sustainable; management is failing. This is not only my opinion; it is 
also the opinion of a Federal judge who ruled in March 2014 that Gulf 
Red Snapper fishery management is failing and is violating the law. 
Specifically, managers allowed the recreational fishery to exceed their 
share of the annual combined quota due to faulty science (both data and 
assessments) and did not require any accountability measures to prevent 
or respond to such overharvests.
    The Gulf Council currently relies on recreational landings data 
from the National Marine Fisheries Service's (NMFS) Marine Recreational 
Information Program, or MRIP, to set and monitor the recreational Red 
Snapper fishery's quota and season. However, MRIP is not equipped for 
this purpose--it was designed to monitor trends over time over a large 
geographic area, not provide real-time, state-specific data. For 
example, MRIP estimated that Louisiana's 2013 recreational landings 
fell somewhere between 265,361 and 942,363 pounds, a range nearly 
700,000 pounds. It is impossible to use highly variable estimates like 
these to predict, with any certainty, how much can and will be 
harvested and appropriately determine fishing seasons to not exceed 
quotas. Yet Federal managers continue to use these data, miscalculate 
the Red Snapper quota for the Gulf, and underestimate actual Gulf-wide 
recreational harvests. In addition, MRIP does not deliver data in a 
timely manner--data typically comes in 2-month intervals after an 
additional delay of 45 days for data processing. This means data is 
often not available to managers until the fishing season is closed, 
prohibiting any kind of flexible, responsive management. As a result, 
recreational Red Snapper harvests have exceeded quotas in 6 of the past 
7 years. Such imprecise, untimely data also forces managers to set 
extremely restrictive and inflexible seasons--they do not have the data 
they need to effectively manage the fishery and achieve the best use of 
the resource.
    The Gulf Council could fix these issues--they could demand better 
data from NMFS and cooperate with the states to respond to and meet 
their constituents' needs. They have chosen not to, and the Gulf states 
refuse to sit by while this mismanagement harms our commercial and 
recreational fishermen, coastal communities, and economies. This year, 
2014, was the shortest Federal Red Snapper season in history--a mere 9 
days. All five Gulf states implemented their own state-waters Red 
Snapper seasons, inconsistent with Federal regulations, but still in 
the best interest of recreational anglers, the economy, and the 
resource. The Gulf states do not want to continue to go out of 
compliance with Federal regulations or hinder the recovery of the stock 
or fishery. We are simply confident we can provide better data to 
manage this fishery and provide our fishermen more fishing 
opportunities. However, we cannot do so under the current management 
framework.
    H.R. 3099 would move the management of the Gulf Red Snapper fishery 
forward by requiring enhanced collaboration among the states with 
respect to fishery data collection and more frequent (annual) stock 
assessments to support management. In Louisiana, we have already 
invested substantial resources in developing a recreational quota 
monitoring survey to provide real-time, in-season Red Snapper landings 
estimates for Louisiana. We implemented this survey (LA Creel) last 
year; in its inaugural year, our biologists measured 23 times more fish 
and interviewed more than 49 times the vessel trips than MRIP. This 
more intensive sampling means more precise data--LA Creel estimated 
that Louisiana's 2013 recreational landings fell somewhere between 
503,171 and 549,987 pounds, a range of only about 45,000 pounds 
(compared to MRIP's 700,000-pound range). Armed with more precise data, 
managers can develop and implement management measures with more 
certainty and take full advantage of the available resource. The other 
Gulf states are now following Louisiana's lead and developing similar 
systems.
    H.R. 3099 also gives management authority for the Red Snapper 
fishery to the Gulf states through the Gulf States Marine Fisheries 
Commission, creating a framework that allows flexible, tailored 
management measures. It does not make sense to have a one-size-fits-all 
approach to managing this fishery. Each state's fishery management 
agency is more receptive and can be more responsive to the wants and 
needs of its own constituents than the council process currently 
permits. This bill will allow managers to meet local needs as well as 
Gulf-wide conservation goals.
    H.R. 3099 still requires management to meet the fishery 
conservation and management standards of the Magnuson-Stevens Act, 
including fair and equitable access to this public resource, and makes 
states accountable for effectively managing their fisheries, with 
Federal oversight from the Secretary of Commerce. This bill is not 
about reallocating the resource and will not negatively impact the 
commercial sector. In fact, to ensure there are no immediate, 
unintended, adverse impacts on this sector and the businesses that rely 
on this supply, there is a 3-year prohibition on reducing current 
quotas (unless something changes with the stock) and ongoing monitoring 
and enforcement.
    The Gulf states are fully capable of providing the data and 
management measures needed to effectively manage the Red Snapper 
fishery. It would be no real change from our current responsibilities. 
We already collect data on and conduct routine stock assessments for 
our inshore species; we also partner with each other and NOAA to 
monitor offshore species. This data, coupled with our commercial and 
recreational landings data, support Federal stock assessments. We 
develop and implement management measures for our fisheries through our 
respective legislative and regulatory processes. Finally, we enforce 
both state and Federal fisheries regulations in all Gulf waters through 
the Joint Enforcement Agreement. Working in Federal waters, Louisiana's 
enforcement agents generally contact about 4,500 recreational anglers 
each year; they are active on the water and at the dock monitoring 
compliance in commercial fisheries. If granted management authority, 
the states could actually increase enforcement capabilities in all Gulf 
waters because additional resources would be available to support this.
    In closing, we have tried to work through the council process, but 
the council process is not working. If it was, there would be no reason 
for this bill and I would not be standing before you today. NMFS itself 
even recognizes that ``new and innovative solutions are needed to 
manage the Gulf Red Snapper fishery.'' The Gulf states are that 
solution.

                                 ______
                                 

    Mr. Fleming. Mr. Blankenship, you are now recognized for 5 
minutes.

    STATEMENT OF CHRISTOPHER BLANKENSHIP, DIRECTOR, MARINE 
  RESOURCES DIVISION, ALABAMA DEPARTMENT OF CONSERVATION AND 
                       NATURAL RESOURCES

    Mr. Blankenship. Thank you, Chairman Fleming, Mr. Sablan, 
and committee members. Thank you for the opportunity to come 
here and speak with you today.
    Red snapper management is of the utmost importance to 
Alabama and the area of the most consternation. Even though we 
have the smallest coastline, we land, on average, 30 percent of 
the recreationally caught red snapper in the Gulf of Mexico. We 
have a great red snapper fishery off our coast because we have 
the largest artificial reef program in the country. Through 
partnerships with many organizations, we have placed over 
17,000 reefs in the 1,200 square miles of reef zone managed by 
my division.
    These reefs have built a large concentration of reef fish. 
The city of Orange Beach is known as the Red Snapper Capital of 
the World and has the largest charter fleet anywhere in the 
Gulf, but this year, they and the thousands of private 
recreational fishermen have only had access to this great 
fishery for 9 days.
    The Gulf-wide single stock Federal management of red 
snapper is not working for all the states. There is the need 
for management on the regional and state level. Regional 
management can be done. We all do it now for species like 
speckled trout and red drum, as well as other state-managed 
species. I don't see where red snapper would be any different.
    Due to changes in the Marine Recreational Information 
Program in 2013, the estimated catch of red snapper was 
drastically inflated over previous years. The public has lost 
confidence in this system, and, frankly, so have the Gulf 
states.
    Each of the Gulf states has implemented a state-specific 
red snapper data collection program because there is no belief 
that the current MRIP estimates are correct. In order to 
determine the actual catch of red snapper landed in Alabama, we 
developed and implemented a mandatory red snapper reporting 
system for the 2014 season. This system was very successful in 
its first year and shows that individualized data collection 
that best fits the geography and circumstances of each state 
can be very beneficial.
    Alabama also continued with the current MRIP system in 2014 
and conducted both programs simultaneously so that we would 
have a comparison of the data for validity. The results were 
striking.
    The Alabama system estimated that 418,000 pounds of red 
snapper were landed during the 2014 season, while the Federal 
system estimated that 1,041,000 pounds were landed.
    We validated our results in Alabama using video counts of 
vessels that were launched at coastal boat ramps. These video 
count estimates were a near identical match to the Alabama red 
snapper reporting data. We feel that the Federal system 
overestimated the catch by more than double. This gross 
inaccuracy has a profound effect on the red snapper seasonally 
and, consequently, a profound negative effect on the economy of 
coastal Alabama.
    We are currently working with NOAA fisheries to calibrate 
the MRIP system and to explore how the Alabama data can be used 
in that system and for future assessments.
    In Alabama, we are continuing to explore technology to 
improve the reporting of recreational catch. Alabama has shown 
that we have the ability to monitor the catch of red snapper 
better than the current Federal system.
    With the management regime proposed by H.R. 3099, the 
Alabama red snapper reporting system will be vital to 
accurately estimating the catch and ensure that overfishing 
does not occur.
    Currently, the red snapper stock is assessed and managed as 
a single unit. For true regional management, each region needs 
the ability to conduct stock assessments for the fishery within 
its region and then manage that stock independent of other 
regions.
    In some cases, the data collection for NOAA is not adequate 
to fully inform the stock assessments. For example, NOAA 
fisheries conduct data collection for reef fish using bottom 
long lines. They conduct this work from the Texas/Mexico border 
all the way to the tip of Florida. However, their sampling 
protocols explicitly exclude the Alabama artificial reef zones. 
In order to collect this information and have it included in 
the red snapper stock assessment, Alabama has funded and 
conducts our own bottom long line data collection program in 
Federal waters. Alabama is spending the hard-earned money of 
our citizens in order to collect that data that NOAA fisheries 
is not.
    Alabama just completed our own comprehensive population 
estimate of red snapper within the Alabama artificial reef 
zones, and this estimate shows that we have more red snapper 
off the coast of Alabama than is being estimated by NOAA 
fisheries.
    We are currently conducting a red snapper stock assessment 
for the area south of the Alabama coast. When the population 
estimate and the Alabama stock assessment are peer-reviewed and 
scientifically accepted, it will show that Alabama has the 
ability to adequately manage the red snapper fishery in 
totality. We can conduct the stock assessments, we can set a 
healthy quota, and we are able to accurately monitor the catch 
to ensure that the red snapper fishery is not overfished, while 
at the same time allowing access to our fishermen.
    I feel like Alabama has more of an opportunity to manage 
this fishery in totality under the provisions of this bill than 
we have under current Federal law.
    In my remaining time, I would like to touch on one other 
issue that is germane to this topic.
    All the Gulf states need consistent water boundaries for 
fisheries management. Currently, the states of Texas and 
Florida have 9 miles, while the other states have 3. This is 
confusing to the public and does not give each state a level 
playing field to manage the fisheries within 9 miles of shore.
    Thank you again for the opportunity to participate in this 
most worthy discussion, and I will be glad to answer any 
questions you may have.
    Mr. Fleming. Well, thank you, Mr. Blankenship.
    [The prepared statement of Mr. Blankenship follows:]
 Prepared Statement of Mr. Christopher Blankenship, Director of Marine 
  Resources Division, Alabama Department of Conservation and Natural 
                               Resources
    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you today to testify on the extremely 
important subject of red snapper management. I am Chris Blankenship and 
I am the Director of the Marine Resources Division of the Alabama 
Department of Conservation and Natural Resources. Under Alabama Law, 
the Alabama Department of Conservation and Natural Resources (ADCNR) 
has full jurisdiction and control of all seafoods existing or living in 
the waters of Alabama and it shall ordain, promulgate and enforce all 
rules, regulations and orders deemed by it to be necessary for the 
protection, propagation or conservation of the same. The Marine 
Resources Division (MRD) is responsible for managing the fisheries in 
the Coastal waters of Alabama and advising the Commissioner of 
Conservation relative to saltwater fisheries and seafoods.
    I am so honored to appear before you today because for the state of 
Alabama, the red snapper fishery is the most important recreational 
fishery in the Gulf of Mexico. It has also become the most contentious 
fishery. Prior to 1997, the red snapper fishery was open 365 days a 
year with very liberal creel and size limits or no limits at all. The 
red snapper fishery was being overfished and additional management 
measures were put in place to protect the stock. In 1997, the season 
was shortened to 330 days with progressively shorter seasons in 1998 
and 1999 when the season length was 240 days. During the years of 2000 
through 2007, the season was stable at 194 days. In 2008, the 
recreational season really began to be curtailed when the season was 
shortened to 65 days. In 2012, the season was 45 days long, in 2013 the 
season was 28 days and in the current year it was an astounding 9 days. 
I am happy to report that the red snapper fishery is no longer 
considered to be undergoing overfishing, although it is officially 
still overfished. The continued reduction and fluctuation of fishing 
seasons has placed a real hardship on the recreational and charter 
fishermen of the state of Alabama and other Gulf states.
    Alabama has a relatively small coastline compared to the other Gulf 
states. Even though the coastline of Alabama only makes up less than 5 
percent of the total Gulf coastline, we land on average 30 percent of 
the recreationally caught red snapper in the Gulf of Mexico. The city 
of Orange Beach is known as, ``The Red Snapper Capital of the World.'' 
The charter and for-hire fleet in Orange Beach contains over 200 
vessels. This is the largest homeport for charter and for-hire vessels 
in the entire Gulf of Mexico. The people of the coastal areas of 
Alabama and particularly the people of the cities of Orange Beach, Gulf 
Shores and Dauphin Island are proud of the outstanding red snapper 
fishery we have in the Federal waters adjacent to Alabama. You might 
wonder how a state with such a small coastline could land that many red 
snapper. The state of Alabama has built this premier red snapper 
fishery through the creation of manmade artificial reefs.
                            artificial reefs
    Alabama has the largest artificial reef program in the United 
States. Red snapper, as well as other reef fish, need structure to 
thrive. The water bottoms off the coast of Alabama are relatively flat 
with very little relief. Until the last 50 years, the only places that 
red snapper were caught off our coast were on the very few natural 
reefs and outcroppings in the Gulf. Beginning in the 1950s, the Alabama 
Marine Resources Division began placing material in the waters offshore 
to create habitat for reef fish. The initial placements were so 
successful that in the 1970s Alabama worked with the Corps of Engineers 
to create the Alabama Artificial Reef Zone. This 1,030-square mile area 
in Federal waters adjacent to Alabama is managed by the Marine 
Resources Division. Over the past 40 plus years, there have been over 
17,000 reefs placed in the reef zone. These reefs include over 100 
decommissioned military tanks, concrete bridge rubble and metal bridge 
spans, over 1,000 ten-foot tall concrete pyramids, many barges, ships, 
tugs, airplanes, dry docks, oil and gas rigs, concrete culverts, and 
pipes. There have also been several thousand reefs placed by private 
companies and individuals that met reef construction protocols and were 
permitted by the Marine Resources Division. This habitat creation has 
caused the population of red snapper to increase substantially off the 
coast of Alabama.
    I would like for my Division to take full credit for the success of 
the Alabama Artificial Reef Program, but I cannot. Although the program 
is managed by MRD and the state of Alabama has invested millions of 
dollars in reef construction, the level of success we have seen would 
not have been possible without the partnerships we have participated in 
with the charter industry, recreational fishing organizations and 
private industry. The Orange Beach Fishing Association has been 
instrumental in partnering with us to fund reef construction. Through 
the Red Snapper World Championship Fishing Tournament, hundreds of 
thousands of dollars were raised to build reefs. The Alabama Road 
Builders Association and the oil and gas industry saw the great fishery 
we were building in Alabama and provided material and funds to 
construct reefs. The Coastal Conservation Association has been a 
valuable addition to recent participation in reef building activities 
both in state waters and in adjacent Federal waters. The most recent 
partnership has been the creation of the Alabama Gulf Coast Reef and 
Restoration Foundation. This group was formed to bring together state, 
county and local governments as well as coastal chambers of commerce, 
coastal businesses and fishing interests to continue to fund reef 
building.
    The millions of dollars that have been invested in artificial reefs 
and the foresight of so many people have created this great red snapper 
fishery, but these same people are only able to have access to this 
fishery for a few days out of the year due to current stringent fishing 
seasons.
   regional management of red snapper through the gulf states marine 
                          fisheries commission
    The Gulf of Mexico Fisheries Management Council and the National 
Marine Fisheries Service are currently tasked with the management of 
red snapper. Currently, the red snapper stock is managed as a single 
stock in the Gulf of Mexico with an overall Gulf-wide quota. The 
overall quota is divided between the recreational sector, with 49 
percent of the quota and the commercial sector, with 51 percent of the 
total quota. Once the recreational quota is met, or is projected to be 
met, the recreational red snapper fishery in the Exclusive Economic 
Zone of the Gulf of Mexico must close. The commercial sector is managed 
under an Individual Fishing Quota program (IFQ). The IFQ program has 
been very successful at constraining the commercial catch under their 
allotted quota each year.
    As previously stated, currently the red snapper stock in the Gulf 
of Mexico is managed as a single unit. This single unit management 
includes both fish caught in state waters as well as fish caught in 
Federal waters. All of the Gulf states do not have the same area of 
state waters. Texas and Florida have 9 miles of state waters while the 
states of Alabama, Mississippi and Louisiana only have 3 miles. All 
three upper Gulf Coast states have passed state legislation to extend 
our waters to 9 miles for fisheries management. It is imperative that 
these new boundaries be recognized by the Federal Government in order 
to put all five Gulf states on a level playing field. Some of the 
states have red snapper seasons in state waters that differ from the 
Federal red snapper season, which is within their sovereign rights. The 
issue for a state like Alabama is that the fish caught during these 
state seasons is deducted from the overall Gulf-wide quota which 
shortens the seasons in Federal waters off the coast of Alabama. The 
state of Alabama does not have many reefs within 3 miles of the shore 
and therefore there is not a sufficient red snapper population in state 
waters to have much of a season outside of the Federal season. Until 
last year, all of the reefs we have constructed in the Gulf of Mexico 
are outside the state 3-mile territorial waters.
    The large decrease in the recreational season length coupled with 
the inequality of state water area and inconsistent red snapper seasons 
by some states has many people looking for solutions. One of those 
possible solutions is regional management of red snapper and other reef 
fish. There are still many aspects of regional management that are 
under discussion but one thing is clear, the current Gulf-wide, single 
stock management system through the Gulf of Mexico Fisheries Management 
Council has not satisfactorily served the fishermen of the Gulf of 
Mexico or the resource.
    As currently proposed under Amendment 39 to the Red Snapper Fishery 
Management Plan before the Gulf of Mexico Fisheries Management Council, 
regional management would divide the Gulf into five regions 
corresponding to the five Gulf state boundaries. Each state would be 
allocated a portion of the recreational red snapper quota as set by the 
Science and Statistical Committee of the Gulf Council. This allocation 
would be determined using prior landing history and other factors to 
establish a fair distribution of allocation. Once a state receives its 
allocation of the total quota, the state could enact management 
measures that would best fit the needs of that state. This flexibility 
would assist in lengthening the season for most states but the biggest 
benefit would be in tailoring seasons and management measures that 
would optimize the socio-economic needs of each region. Currently, the 
red snapper season begins on June 1 of each year and runs consecutively 
until the quota is projected to be met. There are some states that, due 
to tourism, weather patterns, or other factors, would prefer a season 
at a different time other than June each year. For example, some states 
might want a season in April or May, some would like a weekend only 
season, some would like a fall season while some would like to have a 
split season. Regional management would allow each region to set 
seasons that would provide the greatest benefit to the fishermen and 
coastal economies within their state while still protecting the red 
snapper stock.
    Regional management and quota allocation would also solve the 
problem of different state water areas and incompatible regulations. 
Each region would be allotted a certain amount of pounds to manage. It 
would not matter if the fish were caught in state waters or Federal 
waters; it would still be counted toward that one regions allocation 
without adversely affecting another region. Regions could also use 
other measures to better manage the fishery in their region including 
setting different bag limits or size limits or assigning different 
sectors a portion of the regional quota.
    If H.R. 3099 was implemented, the Gulf States Marine Fisheries 
Commission would conduct stock assessments for red snapper annually and 
then each of the five Gulf states would submit a plan to manage the 
fishery adjacent to their state. I think this has a great deal of 
potential. If the state and selected NOAA scientists can work together 
to produce a comprehensive stock assessment conducted by the Commission 
and then manage the resultant quota with the means that protect the red 
snapper stock while also allowing greater access to recreational 
fishermen that would be a vast improvement over the current system.
    The Gulf States Marine Fisheries Commission does not currently have 
regulatory authority. This is something that would have to change in 
order for this proposed system to be successful. Another issue concerns 
funding, the Commission does not currently employ a stock assessment 
scientist and there are no funds in the Commission budget to conduct 
stock assessment workshops. There is currently not adequate funding to 
hold public meeting in each Gulf state to receive public testimony. 
These are issues that can be resolved by transferring a portion of the 
funding that is currently being used by NOAA and the Gulf Council to 
conduct these activities to the Gulf States Marine Fisheries 
Commission.
                recreational red snapper data collection
    Due to changes in the Federal Marine Recreational Information 
Program (MRIP) in 2013, the reported catch of red snapper was 
drastically inflated over previous years. The public has lost 
confidence in this system and frankly, so have many of the Gulf states. 
Each of the Gulf states has implemented a state-specific red snapper 
recreational data collection program because there is no belief that 
the current MRIP estimates are correct. There has been a consensus in 
Alabama from the charter fishermen and many recreational fishermen that 
for the opportunity to pursue regional management they would be willing 
to take a more active role in the reporting of their catch. In order to 
determine the actual catch of red snapper that is landed in Alabama, 
the Alabama Marine Resources Division developed and implemented a 
mandatory Red Snapper Reporting System for the 2014 red snapper season. 
This program required both charter and recreational fishermen to report 
their catches of red snapper upon their return to the dock. This system 
was very successful in its first year and shows that individualized 
data collection that best fits the geography and circumstances of each 
state can be very beneficial.
    Alabama implanted this new system in 2014 but we also continued 
with the current MRIP system and conducted both programs simultaneously 
so we would have a comparison of the validity. The results were 
striking. The Alabama system estimated that 418,000 pounds of red 
snapper were landed during the 2014 season while the Federal MRIP 
system estimated the 1,041,000 pounds we landed. Alabama validated its 
results by using video counts of vessels launched at coastal boat 
ramps. These video count estimates were a near identical match to the 
Alabama red snapper reporting system data. We feel that the Federal 
system overestimated the catch by more than double. This gross 
inaccuracy has a profound effect on the red snapper season length and 
consequently a profound negative effect on the economy of Coastal 
Alabama. Alabama plans to continue the mandatory red snapper reporting 
system in 2015. We will again conduct both the state and Federal 
systems concurrently in order to have comparative data. We are also 
working with NOAA Fisheries to calibrate the MRIP system and to explore 
how the Alabama data can be used in that system and in future 
assessments.
    The charter fleet in Alabama has proposed 100 percent electronic 
trip reporting to ensure compliance and to assist in quota monitoring. 
In Alabama we are continuing to explore new technology to improve the 
reporting of recreational catch. Alabama has shown that under regional 
management we have the desire and the ability to better monitor the 
catch of red snapper than the current Federal system. With the 
management proposed by H.R. 3099, the Alabama system will be vital to 
accurately estimating the catch to ensure overfishing does not occur. 
As the Director of the Alabama Marine Resources Division, I am 
concerned about the cost of additional data collection. For regional 
management, or continued Federal management, adequate funding for 
recreational data collection is imperative.
               regional management and stock assessments
    The proposed concept of regional management through the Gulf States 
Marine Fisheries Commission is a step in the right direction. The 
flexibility to set seasons and other management measures by region will 
go a long way toward providing tailored management that best suits the 
socio-economic and fishery management needs of the region. However, not 
all regions have the same habitat and therefore not all regions have 
the same stock characteristics. As previously stated, Alabama has the 
largest artificial reef program in the United States. We have over 
17,000 reefs that have been placed in our reef zones. This large amount 
of habitat has produced a large amount of fish. Not all states or 
regions have this large concentration and population of red snapper and 
other reef fish. Currently, the red snapper stock is assessed and 
managed as a single unit. For true regional management, each region 
needs the ability to conduct a stock assessment for the fishery within 
its region and then manage that stock independent of the other regions. 
The current Magnuson-Stevens Fishery Conservation and Management Act 
(MSA) does not allow this type of true regional management.
    In some cases, the data collected by NOAA Fisheries is not adequate 
to fully inform the stock assessment models. To obtain a large portion 
of the data included in the red snapper stock assessment, NOAA 
Fisheries conducts fishery independent data collection for reef fish 
using a bottom long line. NOAA conducts this work from the Texas/Mexico 
border to the tip of Florida. However, their sampling protocol 
explicitly excludes the Alabama Artificial Reef Zones from its data 
collection. Attached to this testimony is a chart showing the last 2 
years of NOAA Fisheries long line sets south of the Alabama coast. As 
you can see, the reef areas off our coast are not sampled. Red snapper 
primarily reside near reef structure. To me this is akin to conducting 
a census of the United States but excluding all the cities and just 
sampling the rural areas. The population of our United States would be 
drastically different if the census was conducted in this manner. I 
feel the red snapper information collected by NOAA is also skewed by 
excluding the areas where over 30 percent of ALL the red snapper in the 
Gulf of Mexico are caught. In order to collect this information and 
have it included in the red snapper stock assessment, Alabama has 
funded and conducted our own bottom long line data collection program 
in Federal waters. Alabama is spending the hard earned money of our 
citizens in order to collect data that NOAA Fisheries should be 
collecting. Again, this is blatantly unfair to the citizens of Alabama.
    Alabama just completed our own comprehensive population estimate of 
red snapper within the Alabama Reef Zones. This population estimate was 
presented by Dr. Sean Powers of the University of South Alabama at the 
Gulf of Mexico Fisheries Management Council Meeting in October of 2014. 
The estimate shows that we have more red snapper off the coast of 
Alabama than is being estimated by NOAA Fisheries. We will continue to 
refine this estimate and work to have the information included in the 
next benchmark red snapper stock assessment. We are currently 
conducting a red snapper stock assessment for the area south of the 
Alabama coast. When the Alabama Red Snapper Population Estimate and the 
Alabama Red Snapper Stock Assessment are peer reviewed and 
scientifically accepted, it will show that Alabama has the ability to 
adequately manage the red snapper fishery in totality. We can conduct 
the stock assessments, we can set a healthy quota and we will be able 
to accurately monitor the catch to ensure that the red snapper fishery 
is not overfished while at the same time allowing access to our 
fishermen. I feel that Alabama has more of an opportunity manage this 
fishery in totality under the provisions of H.R. 3099 than we currently 
have under NOAA Fisheries and current Federal law.
    Thank you again for the opportunity to participate in this most 
worthy discussion. The red snapper fishery is of utmost importance to 
the people and the coastal economy of the state of Alabama. If I can 
ever assist in any way, please feel free to contact me.

                              ATTACHMENT 1

      grants and sub grants received by the alabama department of 
      conservation and natural resources/marine resources division

NOAA Fisheries Grants:

Southeast Area Monitoring Assessment Program


2010.................................................       $ 195,000.00
2011.................................................       $ 222,575.00
2012.................................................       $ 272,575.00
2013.................................................       $ 213,889.00
2014.................................................       $ 196,625.00
 


Cooperative Statistics Program


2010.................................................        $ 88,220.00
2011.................................................        $ 77,216.44
2012.................................................        $ 88,200.00
2013.................................................        $ 79,398.00
2014.................................................        $ 79,398.00
 


Emergency Disaster Recovery Program--Round I (EDRP)


2010.................................................     $ 5,903,326.43
2011.................................................     $ 2,736,295.86
2012.................................................     $ 2,123,432.03
2013.................................................      $        0.00
2014.................................................      $        0.00
 


Emergency Disaster Recovery Program--Round II (EDRP)


2010.................................................     $ 1,346,322.94
2011.................................................     $   823,808.57
2012.................................................     $   404,113.46
2013.................................................     $ 1,189,202.79
2014.................................................      $        0.00
 


Interjurisdictional Fisheries


2010.................................................        $ 24,544.00
2011.................................................        $ 24,550.00
2012.................................................        $ 24,545.00
2013.................................................        $ 16,654.00
2014.................................................        $ 22,411.00
 

Joint Enforcement Agreement


2010.................................................       $ 499,198.00
2011.................................................       $ 562,474.00
2012.................................................       $ 515,508.00
2013.................................................       $ 476,136.00
2014.................................................       $ 484,931.00
 


Gulf States Marine Fisheries Commission Sub Awards from NOAA Fisheries:

Marine Recreational Data Collection


2010.................................................       $ 179,109.00
2011.................................................       $ 143,579.00
2012.................................................       $ 205,475.00
2013.................................................       $ 191,259.00
2014.................................................       $ 330,000.00
 


Commercial Fisheries Trip Level Data Collection


2010.................................................       $ 151,225.00
2011.................................................       $ 173,691.00
2012.................................................       $ 169,006.50
2013.................................................       $ 138,171.00
2014.................................................       $ 197,470.00
 


Biological Sampling of Recreational and Commercially Important Species


2010.................................................       $ 112,406.50
2011.................................................       $ 100,264.00
2012.................................................       $ 144,650.50
2013.................................................       $ 119,029.00
2014.................................................       $  76,971.00
 


Gulf of Mexico Fishery Management Council:

Contractual Services to Assist with Council Business


2010.................................................        $ 38,474.95
2011.................................................        $ 30,746.55
2012.................................................        $ 33,402.57
2013.................................................        $ 35,000.00
2014.................................................        $ 45,000.00


 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                                       
                                                       
                                 

    Mr. Fleming. And we are anxious to get into questions. 
Unfortunately, we have been called to the Floor for a vote. So 
we will go ahead and recess. We expect to return in about 30, 
35 minutes. So don't get too far away, and we have plenty of 
questions for you.
    Thank you, and we are in recess.
    [Recess.]
    Mr. Fleming. OK. The subcommittee comes to order. At this 
point, we will begin Member questioning of the witnesses. To 
allow all Members to participate and to ensure we can hear from 
all of our witnesses today, Members are limited to 5 minutes 
for their questions. However, if Members have additional 
questions, we can have more than one round of questioning.
    I now recognize myself for 5 minutes.
    Mr. Rauch, there is clearly a mistrust with the MRIP, the 
MRIP program. At least two states now have conducted their own 
recreational data collection programs for red snapper. And, by 
the way, it is not just red snapper. We have had other--it is 
clear that the data for fish surveys in general under NOAA have 
been too old and unreliable. But in the MRIP, results were not 
only erroneous but highly inflated. So, in addition, there is a 
time lag between when the data is collected and when the MRIP 
results are available to fishery managers.
    How is NOAA addressing these issues?
    Mr. Rauch. Thank you, Mr. Chairman. One of the hallmarks of 
the Marine Recreational Information Program or MRIP is working 
with the states to design the program to get the data that both 
the Federal and the state managers need to manage that fishery. 
We support localized efforts to try to collect that data. We 
actually worked with Alabama on their program, funded part of 
that program. We worked with a number of other states to try to 
work on these issues to collect the data, calibrate the data, 
and to make it usable. We do look forward to that. So 
variations in the data are not to be unexpected. We are working 
closely with Alabama to align their program and to determine 
why there is a discrepancy between the numbers. And that 
happens in other states, too. In various places, the survey 
could be high or low, and we need to determine why it is high 
or low in order to calibrate that long term.
    Mr. Fleming. All right. So, obviously, we need to do a much 
better job, and now with the technology we have, which is so 
inexpensive, we need to take advantage of some of the more 
creative and cutting-edge ways of making those measurements and 
reporting them in real-time.
    Under H.R. 3099, Mr. Miller's bill, all data collection and 
management functions for the red snapper fishery would be 
transferred to the Gulf States Commission.
    Concern has been raised that the legislation might waive 
the requirements in the Magnuson-Stevens Act that the fishery 
be rebuilt and that annual catch limits and accountability 
measures be maintained.
    So can you comment on that concern?
    Mr. Rauch. Well, the administration has not taken any 
position whatsoever on the bill. So, to the extent that there 
are concerns or praise for the bill, those are opinions of 
others.
    We do think that it is important--this fishery affects not 
just the recreational fishermen in the Gulf, and it is a very 
important recreational fishery, it affects a directed 
commercial fishery which is providing jobs and resources to 
local communities and fish throughout the country.
    And also, as I mentioned in my opening testimony, one 
significant source of the mortality is the juvenile red snapper 
that is caught in the shrimp fishery. So we think it is 
important on any type of management structure that they be able 
to deal with all of those sources of mortality in a coordinated 
manner. It certainly can be done, but it needs to be done 
because all three of those components need to be addressed 
together, and if you don't look at all three of those 
components, you are going to create inconsistencies.
    Mr. Fleming. Under the Council's regional management plan, 
would states manage and enforce out to 200 miles?
    Mr. Rauch. I can't speak to the Miller bill. Currently, 
under the council system, the states can enforce out to 200 
miles if the regional management is structured accordingly.
    States currently can manage their own fishermen regardless 
of where they are as long as it is consistent with Federal 
regulations. And they could enforce either directly through 
some sort of delegated authority or through a joint enforcement 
agreement with us, they can enforce Federal laws out to 200 
miles.
    Mr. Fleming. I have seen various scenarios where that is 
divided among states. Is this something that may lead to the 
requirement of multiple state licenses?
    Mr. Rauch. Depending on how it is structured, if each state 
is managing it individually, you could theoretically have each 
state licensing fishermen, and so you would need five. You 
could design a system where there is a single multi-state 
license. So, there are different ways that you can address 
that.
    On the Atlantic Coast, often when the fisheries are managed 
recreationally under the Atlantic States Commission's 
authority, there are multiple state licenses that are needed.
    Mr. Fleming. OK. My time is up. I yield to the Ranking 
Member.
    Mr. Sablan. Thank you very much, Mr. Chairman.
    Mr. Rauch, let me ask you several questions.
    H.R. 3099 does not authorize additional appropriations for 
the annual stock assessments it would require the Gulf 
Commission to conduct. So, without the funding, how would the 
Commission pay for stock assessments?
    Mr. Rauch. Thank you. That is a good question.
    Currently the Commission does contribute to the overall 
science enterprise in the Gulf. If you assign them more 
responsibilities, they will have to find those funds from 
somewhere. If more funds are not given to them, they will have 
to take it away from some of the other funding that they do, 
and there is a significant question about whether their stock 
assessments could reach things like the commercial landings, 
either in the directed commercial fishery or in the juvenile 
bycatch in the shrimp fishery.
    Theoretically they can do those things. We work with them 
closely on data collection, but if you add new responsibilities 
without new funding, you would have to take that money from 
somewhere. It just doesn't----
    Mr. Sablan. So you--they would have to find money from 
somewhere----
    Mr. Rauch. Yes.
    Mr. Sablan [continuing]. Else.
    OK. And the bill would also give the Gulf Commission 
regulatory authority over red snapper, but that the Commission 
does not employ any fishery management plan coordinators or 
stock assessment scientists. This is in contrast to the 
Atlantic States Commission, which has several fish.
    So do you believe the Commission has the capacity to manage 
the fishery?
    Mr. Rauch. I believe the Commission, if given this 
authority, would have to hire new staff to support these 
efforts.
    Mr. Sablan. So they don't have--we don't believe they have 
the present capacity to----
    Mr. Rauch. I believe they would have to hire some new 
staff.
    Mr. Sablan. All right. So, what challenges does NOAA face 
when incorporating data collected by the states?
    Mr. Rauch. As I said, the red snapper fishery is currently 
managed as a unit throughout the Gulf, and so we have to make 
sure that data we get from one state is talking the same 
language of the data that we get from another state so that we 
can understand the health of the overall Gulf-wide population.
    Some states we work better with than others. Some states 
have a long track history with others. I think collectively we 
try to get a uniform picture, but it is challenging. And from 
the Federal Government's perspective, we sample for more than 
just red snapper. We sample a broad suite of things, and so we 
have to calibrate things like a directed red snapper survey 
with the overall effort. It is not impossible to do. It 
presents challenges to do, particularly as new surveys come 
online, but we do encourage states to--we do encourage 
localized efforts to get data that we collectively need. It 
just creates a calibration challenge.
    Mr. Sablan. So let me--just for the record, you also stated 
that red snapper stock is only halfway through its rebuilding 
target. It is still overfished. Am I correct?
    Mr. Rauch. It is still--it is not rebuilt.
    Mr. Sablan. It is what?
    Mr. Rauch. It is not rebuilt. Yes, it is only halfway to 
the rebuilding target.
    Mr. Sablan. My question is, it is still overfished?
    Mr. Rauch. Yes. That is correct.
    Mr. Sablan. So is rebuilding the stock the best way to 
ensure the highest quality, highest value for the Nation for 
the fishery, destination for the fishery?
    Mr. Rauch. We have seen significant increases in 
opportunities and in economic value in rebuilt stocks than in 
overfished stocks across the country. There are more fish 
available for both the commercial and recreational fishermen. 
They can have longer seasons for a rebuilt stock. It is the 
goal that we are trying to work toward, and we are not there 
yet.
    Mr. Sablan. OK. Mr. Blankenship, sir. You mentioned in your 
testimony that the Gulf Commission would need funds transferred 
from NOAA in order to manage red snapper, but the legislation 
before us, H.R. 3099, does not allow for such a transfer, and 
without that funding, can the Commission manage snapper 
effectively? And how much funding would be needed, do you 
think?
    Mr. Blankenship. The current funding that the Gulf States 
Marine Fisheries receives and the current staff, I don't think 
that it is adequate to truly be able to manage this fishery, 
but if they were given this as a task, money comes to the Gulf 
States Marine Fisheries Commission now from NOAA fisheries for 
other data collection programs. You know, a lot of the funding 
that comes for the data collection in the Gulf that is managed 
by the Commission comes through NOAA now. So there is, I could 
see the mechanism where that would take place.
    Mr. Sablan. I know my time is over, but how much money 
would be needed?
    Mr. Blankenship. The Gulf States Marine Fisheries 
Commission, in response to this bill, is putting together an 
estimate, and we will have that at our next meeting in March, 
we will have that information.
    Mr. Sablan. Thank you very much.
    Mr. Fleming. Gentleman's time is expired.
    Mr. Duncan from South Carolina is recognized.
    Mr. Duncan. Thank you, Mr. Chairman, and thanks for holding 
this valuable hearing.
    Since I have been in Congress for 4 years, we have talked a 
lot about data collection, and I remember the gentleman from 
Florida, Mr. Southerland, talking about two guys in a lab coat 
determining fishing seasons and all based on computer models, 
and so my first question is for Secretary Barham from 
Louisiana.
    I see that your state's data collection and gathering is 
producing a much clearer picture for state management and 
stewardship of fishery resources. So the question is, how is it 
that your state measures 23 times more fish and interviewed 49 
times more vessels than the Federal system?
    Mr. Barham. Congressmen, thank you.
    It is an allocation of manpower and assets to put on the 
subject, is what it amounts to. I notice that we were talking 
about 2013, the gap between what they estimate, because they 
have such a lack in hard numbers, they are extrapolating from 
such a small number, they computed--National Marine Fisheries 
computed that the catch for recreational landings in Louisiana 
was between 265,000 and 945,000 pounds. That is 700,000 pounds 
difference. For the same period, we confirmed with our intense 
monitoring that it was between 503,000 and 549,000. That is 
only 45,000 pounds.
    Mr. Duncan. And you were using more actual data and talking 
to fishermen and measuring and counting?
    Mr. Barham. Absolutely, we were. We have biologists 
assigned. What we put in place in Louisiana is a free permit. 
It is an offshore landing permit. Anyone who is going offshore 
has to have that offshore landing permit. So----
    Mr. Duncan. Excuse me just a second.
    Mr. Rauch, are you using computer models?
    Mr. Rauch. We use a combination of computer models and 
actual samplers, data we get from samplers.
    Mr. Duncan. All right. I will go back to the Secretary.
    Mr. Barham. The sampling we do, we have biologists. We have 
biologists in the water and on the docks. We have identified 
the primary dock locations where these snapper are coming 
onshore. There are probably 20, 25 major docks that we are 
physically counting and looking and measuring these fish, so 
that we are literally taking thousands more samples for 
Louisiana. So that we know what that catch is, and we are 
following up with phone surveys and mail surveys to these 
people who have these free offshore landing permits so we know 
where to pool. It is about assets assigned to the 
responsibility. That is the difference. state is going to be a 
much better vehicle to assign those intense looks, if you will.
    Mr. Duncan. Right. I am from South Carolina, and I don't 
even have to take my shoes off to use the digits on my feet to 
count that there is a big difference between 40,000 unit 
difference and 500,000 unit difference. That is amazing.
    So, Mr. Rauch, I notice that Texas has significantly more 
state waters than Alabama, Mississippi, and Louisiana; and 
Texas allowed a year-round fishery with a higher bag limit or a 
catch limit than other states. So why did NOAA allow this to 
continue for more than 15 years and how does it affect the 
potential allocation splits between the states?
    Mr. Rauch. Thank you, Mr. Congressman.
    The effect of that, there is only a certain number of red 
snapper that can be caught recreationally. The more that are 
caught in state waters, the less that can be caught in Federal 
waters. So when Texas has a longer season than Federal waters, 
we account for that--or any other state, frankly. This is what 
we did when Louisiana or the other states extend their season. 
We account for the state landings in those waters and deduct 
them from the Federal season. So the Texas extension has the 
effect of limiting the Federal season to less time. The same 
would be true in any other state that has a season longer than 
the Federal season. We would take those fish out of the Federal 
quota, and we would make the Federal season shorter.
    Mr. Duncan. All right. Let me go back in the very little 
remaining time I have and ask, how do you feel about the 
accuracy of the state's data? The numbers that were just spoken 
to by the Secretary, how do you weigh that accuracy, and how do 
you reconcile the differences, 40,000 versus 500,000? How did 
you reconcile that?
    Mr. Rauch. Thank you, Mr. Congressman.
    It is certainly true if you have an intensive effort that 
is expensive and time-consuming and is something that currently 
the NOAA fisheries does not have the resources to commit to a 
single species in a single state, and states may be better 
positioned to do that. You may get a more accurate estimate. We 
need to compare that to the historical estimate of fishing in 
Alabama before they instituted this landings and compare it to 
the rest of the Gulf. We need to calibrate it, but we hope to 
be able to do that. I think we were in discussions with 
Louisiana about calibrating their survey in the coming years so 
that we can compare their landings to both their historical 
landings and to other states. So I think that we would welcome 
more accurate data as long as we can figure out how it relates. 
Is it apples to apples or is it apples to oranges, and that is 
what we are working with them now to do.
    Mr. Duncan. I will tell you, calibration and historic data 
and computer models seem to be out of whack. When you hear 
numbers that I just heard from Louisiana and that we have 
talked about in this committee numerous times where the actual 
data, interviewing the captains at the dock, looking at the 
catches, talking to fishermen, and actually doing the field 
work, you've got the resources of the Federal Government at 
your disposal, and I know we are under tight and austere times 
here, but I believe actual data of counting fish and talking to 
the fishermen work better than these computer models, and I 
yield back.
    Mr. Fleming. Gentleman's time is up.
    Chair now recognizes Mr. Byrne, the gentleman from Alabama.
    Mr. Byrne. Thank you, Mr. Chairman.
    Mr. Rauch, what is the budget for the NOAA marine fisheries 
this year?
    Mr. Rauch. I don't have the exact figure in front of me, 
but it is something in the realm of $800 million to $900 
million. Somewhere in that realm.
    Mr. Byrne. So you have $900 million and you can't give us 
any better count of the fish stock than what you have told us 
today?
    Mr. Rauch. Within that--yes, we manage every fishery in the 
country from the Virgin Islands to the Northern Marianas to 
Alaska to Hawaii. We also manage the endangered species, and 
the amount of money that we can allocate to fish surveys is a 
line item in our budget, and so we do the best that we can in 
terms of accuracy----
    Mr. Byrne. My constituents do the best they can to pay 
their taxes that make up that $900 million. Can you explain to 
my constituents in the state of Alabama why, with all that 
money, NOAA Marine Fisheries explicitly excludes the Alabama 
artificial reef zone from its sampling protocols? Can you 
explain that?
    Mr. Rauch. In the last two stock assessments, in the 2013 
stock assessment and in the upcoming stock assessment, we are 
incorporating data that is collected on artificial reefs into 
those stock assessments.
    Mr. Byrne. Well, why didn't you do it before?
    Mr. Rauch. Historically, we haven't been able to. We 
collect data in these areas by trawling along the bottom, and 
you can't trawl--the gear that we have historically used you 
can't trawl on artificial reefs. It is bad for the reefs, and 
it is bad for the nets. So we have discovered additional ways 
either using long lines or other kinds of sampling mechanisms 
to actually sample in there, and actually our partners did 
that. I don't want to take full credit for that.
    Mr. Byrne. Well, Mr. Blankenship and I went out with Dr. 
Bob Shipp, who you know, on a boat in the Gulf of Mexico, I 
think it was in May, and he had these hi-def cameras mounted on 
submersible vehicles to look at the actual reefs themselves to 
count fish . . . 1, 2, 3, 4, 5. We actually caught fish on the 
reefs so they can get how big they are, how old they are, all 
that sort of thing. He was able to do that with the very 
limited budget he has as a member of the faculty of the 
University of South Alabama.
    Are you telling me a Federal agency that has almost a 
billion dollars is relying on using trawl nets to find a fish 
that you can only find on a reef? Is that what you are telling 
us?
    Mr. Rauch. You can find that fish in other places.
    Mr. Byrne. I have been fishing the Gulf of Mexico my whole 
life. I have never known anybody that has found a red snapper 
anywhere but a reef. That is where they grow. They are reef 
fish. So why do you not sample on reefs with $900 million at 
your disposal?
    Mr. Rauch. The commercial fishermen don't set their nets on 
the reefs, sir. You can catch these fish off the reefs. The 
recreational fishermen tend to do that.
    The camera technology is relatively new technology, and we 
very much support that technology, and we are trying to work 
that into the stock assessments. We believe that this is very 
promising to actually do what you have suggested, to actually 
look at the reefs, to have actual hard data, and that is the 
portion of the data that does actually work into our----
    Mr. Byrne. You would agree that there is a large percentage 
of this fish stock on reefs.
    Mr. Rauch. Absolutely, sir.
    Mr. Byrne. Why would you not sample on reefs if that is 
where the large percentage of the fish stock is?
    Mr. Rauch. We are trying to find ways to do that.
    Mr. Byrne. Well, I just told you a way that a very much 
lower funded organization has been able to do that. How can the 
Federal agency that is charged with this, that has almost a 
billion dollars, how come you can't do that?
    Mr. Rauch. We are incorporating that data into our stock 
assessments.
    Mr. Byrne. You are incorporating data that somebody else 
has collected not using your funds.
    Mr. Rauch. Much of the data that external people use to 
collect reefs and technology is using our funds. Much of the 
data that goes to the Gulf Commission.
    Mr. Byrne. Do you have----
    Mr. Rauch. The Alabama survey that we have talked about----
    Mr. Byrne. Do you have any problem with letting some of 
that $900 million be used by the Gulf States Fisheries 
Commission to do its own sampling?
    Mr. Rauch. We currently allocate some of that $900 
million----
    Mr. Byrne. Would you be willing to allocate more if that is 
what it took to get an accurate sample of this fish stock----
    Mr. Rauch. We believe we have an accurate sample of this 
fish stock.
    Mr. Byrne. Well, I think that the testimony and evidence 
before this committee directly contradicts what you have just 
said, and we have lost confidence in you. The people in the 
Gulf states have lost confidence if you. You have two of the 
most respected men in their fields sitting next to you. 
Obviously, from what they have said, they have lost confidence 
in you, and you have said nothing today to indicate to me that 
we should have confidence in you and provide you $900 million 
to do a poor job of what you are charged to do.
    I appreciate you being here today. I know that you are the 
guy that gets to come here and catch the flack, but, quite 
frankly, I think we have come to the point where we need to 
take it away from your organization and give it to the people 
that live in that area that will do it right and do it with 
sound science and in a way that make sense for us all.
    Thank you, Mr. Chairman. I yield back.
    Mr. Fleming. Gentleman yields his time.
    Next the Chair recognizes Mr. Southerland for 5 minutes.
    Mr. Southerland. Thank you, Mr. Rauch. I appreciate you 
being here, and I know we have met, and I have enjoyed our 
conversations.
    I am curious, biomass for the red snapper, by some 
estimations, has as much as doubled in the rebuild. Is that 
accurate, close to accurate?
    Mr. Rauch. Yes, sir. From the low point of this population, 
it has close to doubled. From historical--if you go back to 
historical measurements of the biomass, it is not close to 
historic highs. I think if you look at my written testimony, 
there is a chart of the biomass that indicates where we are on 
the rebuilding trajectory.
    Mr. Southerland. We have looked at some data, your own 
data, and we have seen that, since 2006, there was evidence 
that the red snapper was clearly rebuilding, and that was with 
194 commercial days--or, excuse me, recreational days fishing 
with a four-fish bag limit.
    Now, based on that data that there is, and it is your data, 
it is not data we dreamed up, we have estimated that, or have 
seen proof that, the snapper was rebuilding. Yet, since 2007, 
we have gone from 194 days and a four-fish bag limit down to 9 
days, and there has already been discussion at the Gulf Council 
that that will be down around, from some estimations, 1 day to 
a high, maybe, of 5 days.
    So, we know that this year the recreational fishery and 
those anglers will be once again penalized for a fishery that 
has rebounded and continued to show enormous rebound, and yet 
your agency and a director within your agency claims that it 
will take until 2035--let me say that again 2035--with no 
season, by the way, in the South Atlantic. I mean, crumbs from 
the king's table. A weekend, but not a season.
    Am I accurate in what I have just explained to you?
    Mr. Rauch. So there are two different stocks in the South 
Atlantic and the Gulf. Both of them are depressed and are 
rebuilding. So I don't want to confuse the two. Both of them 
have very short----
    Mr. Southerland. But here is the thing. ``Rebuilding'' is a 
relative term.
    Mr. Rauch. Yes.
    Mr. Southerland. OK? I like absolutes. And it is an 
absolute fact that the red snapper fishery is healthy, not 
overfished. An arbitrarily low-set quota set by relativists is 
overfished, but not by individuals who believe in absolutes, 
because absolutely the fishery, the red snapper in the Gulf of 
Mexico, is stronger, doubled, by your own estimation, and we 
see your own data showing that it was rebounding in 2007 when 
the IFQ was put into place.
    Mr. Rauch. So it is rebuilding. It is rebuilding at a pace 
that is much greater than we expected. It is healthier than we 
thought it would be at this point in time.
    Mr. Southerland. OK.
    Mr. Rauch. The management managers that we put in place in 
those times, both the commercial IFQ and the bycatch 
restrictions in the shrimp fishery have helped. Also what has 
helped is the limitations on the recreational fishery, but yes, 
it is rebuilding. I will completely agree with that.
    Mr. Southerland. So if you are a recreational fisherman and 
you work 60 hours a week to take your family, your children, 
fishing on Saturday, and 7 years ago, you had 194 days to do 
that and the fishery has rebounded, in your own words, you just 
said, faster than anticipated, and yet the 2035 date is not 
getting any closer or not being edited down, and you are a 
recreational fisherman and you are down to 9 days now with a 
two-fish bag limit brought down from four, and you are looking 
now because of the comments that have been made at the Gulf 
Council meeting saying, Hey, we are looking at a 1-day season, 
perhaps at the most a 5-day season, if you are a recreational 
fisherman that continues to own a boat and pay the registration 
and buy the gas and do everything that it takes, the catch is 
now two fish, do you see the problem that your agency finds 
with maintaining integrity with the general public?
    Mr. Rauch. There are fishermen today that can catch a red 
snapper that could not catch it 5 years ago because the stock 
is moving along the coast of Florida, but, yes, I completely 
agree with you that the average fisherman does not understand 
why in a rebuilding fishery like this that the season is 
shorter. They are allowed to catch more red snapper now than 
they have ever been allowed to before. The quota for the 
recreational fishery is higher than they have ever been before, 
and yet they continue to catch that, even in a 9-day season. It 
makes it very difficult to explain to one fisherman who only 
sees what they catch how there are thousands of anglers and the 
overall Gulf catch is much higher than even the highest quota 
we have ever allocated to the recreational fisherman.
    Mr. Fleming. OK. Gentleman's time is expired.
    And next Mr. Jolly is recognized for 5 minutes.
    Mr. Jolly. Thank you, Mr. Chairman.
    Thank you for allowing me to be here today. I appreciate 
it.
    Mr. Rauch, to build on Mr. Southerland's comments, you have 
acknowledged NMFS' position is that the stock is rebuilding. 
You also said that it is still being overfished. You can't 
actually have both, because if the stock is rebuilding, we are 
not overfishing. The plan is actually working. Right?
    Mr. Rauch. The stock is not subject to overfishing. 
Overfishing is the act of the fishermen that drives the stock 
down. You would be correct that you cannot have overfishing and 
rebuilding at the same time. The stock is still overfished, 
which is a population estimate, but it is rebuilding and so 
overfishing has ended.
    Mr. Jolly. Overfishing has ended?
    Mr. Rauch. Overfishing has ended.
    Mr. Jolly. And so the position of NMFS and the Council for 
reducing from 9 days to 6 days or 5 days would be as a result 
of weight as opposed to what--why if overfishing has ended, why 
do we need to reduce the number of days in a season to continue 
on the track that has been successful thus far to rebuild, 
taking your data, not even considering the state data yet.
    Mr. Rauch. First of all, the stock assessment is going to 
look at all these numbers, and we are going to be expecting an 
update. So that update will determine how much fish are 
available. Every update that we have done recently has 
indicated more fish are available to be caught. The stock is 
growing. So we have increased the quota, the amount of fish 
that the recreational fisherman can catch. That may happen 
again. So that is going on now and will be available before 
next season.
    Mr. Jolly. OK. And I am sorry. I have to move on because I 
have additional questions. You indicated NMFS does consider 
data, state-collected data. Secretary Barham, do you agree with 
that? Do you think that the Louisiana data, or Mr. Blankenship, 
the Alabama data, in any real tangible way has ever influenced 
decisions by NMFS or the Council? Do you think it is being 
appreciably considered?
    Mr. Barham. As far as Louisiana, I have my doubts that our 
information is getting the consideration it merits.
    Mr. Jolly. Mr. Blankenship, Alabama?
    Mr. Blankenship. We are currently working with NOAA 
fisheries with our Alabama data from the red snapper reporting 
program to get that incorporated into the stock assessments and 
to make some calibration changes in the future. I will reserve 
judgment on how well that is going to go until we are a little 
further down the line in our discussions, but I will say that, 
in doing our own data collection with our bottom long line work 
in our artificial reef zones that were being excluded from NOAA 
fisheries, Mr. Rauch is correct that that is being included in 
the stock assessment now but not at the same weight as the data 
that is collected by NOAA fisheries. So they are discounting 
some of the work that we are doing, and it doesn't receive the 
same weight in the stoke assessment, so it doesn't affect it as 
much as it should.
    Mr. Jolly. Sure. And that is similarly what we hear from 
our folks in Florida, there seems to be a perfunctory 
consideration and a call for data, but at the end of the day, 
it seems to be pushing a noodle at times.
    Secretary Barham, curious, you mentioned that your 
fishermen from all sectors agreed to a fee increase to support 
the data collection. Is that right?
    Mr. Barham. Yes, sir, we did. We passed it in this past 
legislative session, and we termed it our LA Creel program.
    Mr. Jolly. And that funds the data collection?
    Mr. Barham. It does, and it allows us to do what we 
consider a stellar gathering of data for Louisiana, and we are 
working with other states now across the Gulf South to tell 
them our experiences and problems, and so I think in some other 
states you are going to see programs very similar to our LA 
Creel.
    Mr. Jolly. All right. Thank you.
    Mr. Rauch, very quickly, if I may ask you a Rule 40 
question. Are you prepared to answer hopefully a pretty general 
question on that? With the sector separation between for-hire 
and recreational, within Rule 40, are there any protections for 
recreational if for-hire overfishes? Because recreational will 
tell you that if for-hire overfishes, it is going to come out 
of the recreational net.
    Mr. Rauch. My understanding is if for-hire overfishes, for-
hire will have to stop fishing, and there is a payback 
provision in some manner for them.
    Mr. Jolly. Payback from the for-hire sector----
    Mr. Rauch. I believe so. You are asking about a level of 
detail that I am not aware of. I do know that there is a 
section of the Magnuson Act 407(d) which does tie the for-hire 
sector quota to the recreational sector and says that, when you 
are over, everybody stops fishing, and that is a statutory 
provision.
    Mr. Jolly. Which is the recreational concern about Rule 40.
    Mr. Rauch. Yes, and it is created by 407(d) of the Magnuson 
Act.
    Mr. Jolly. Thank you very much. I appreciate it.
    Mr. Chairman, thank you again. I yield back.
    Mr. Fleming. The gentleman yields back.
    In the interest of time, I am going to go ahead and bring 
the third panel forward. We had some more questions for the 
second panel. I just apologize. We are running out of time, and 
I know Mr. Blankenship and Secretary Barham have a lot more 
information to provide, but we will need to do that off-line. I 
want to thank the panel today and ask our third panel to step 
forward.
    We are now ready for our third panel, which includes Mr. 
David Cresson, President and CEO of Louisiana Chapter of 
Coastal Conservation Association; Mr. Bob Gill, Board Member, 
Gulf Seafood Institute; Captain Jim Green, Vice President, 
Destin Charter Boat Association; and Mr. Harlon Pearce, owner 
Harlon's LA Fish, Kenner, Louisiana.
    As I already mentioned, your written testimony will appear 
in full in the hearing record, so I ask that you keep your oral 
statements to 5 minutes as outlined in our invitation letter to 
you under Committee Rule 4(a). Also, remember that you are 
under the 5-minute limitation, so you will be under the green 
light for 4 minutes; yellow light for 1; and when it turns red, 
please immediately conclude your remarks.
    Mr. Cresson, you are now recognized for 5 minutes to 
present testimony on H.R. 3099.

  STATEMENT OF DAVID A. CRESSON, PRESIDENT AND CEO, LOUISIANA 
           CHAPTER, COASTAL CONSERVATION ASSOCIATION

    Mr. Cresson. Thank you, Mr. Chairman. Thank you for having 
me here today. It is a real honor and thank you Members for 
allowing me to present to you today. My name is David Cresson. 
I am the executive director, as you mentioned, of the Coastal 
Conservation Association in Louisiana. In that role, I have the 
honor and privilege of serving 20,000 recreational fishermen in 
Louisiana, and I am here on their behalf today.
    I have thought a lot about what I wanted to say to you 
today, and I could go back on a lot of what you have heard here 
today. I think it is very, very clear that this system is 
failing. It is not working for anybody really, but specifically 
the recreational fishermen. I could talk about other things 
that hadn't been mentioned so much, like the fact that the 
allocation is so messed up. We could talk about the 75 percent 
of the fishery that is now privately held. But I thought, 
instead of that or instead of going over what everybody has 
already said here today, I would talk to you more from what I 
do for a living and that is talk to fishermen every day. I am 
out around the state of Louisiana on the coast talking to 
fishermen every day, and I am a fisherman. I fish for this 
species and others all the time, so I thought I would talk from 
that side of things rather than so much about what we have 
already heard.
    I was in your hometown not long ago, Minden, Louisiana. I 
go up there once a year to speak to a Lion's club. You may even 
be a member. I think you are. We are up there talking about 
fish issues, and it is amazing in Minden, Louisiana, which is 
250, almost 300 miles from the coast, where there is not salt 
water anywhere nearby. The first question I get from my members 
and others in Minden, Louisiana, is what are we going to do to 
fix red snapper. They don't ask about trout. They don't ask 
about red fish. They don't ask about bass. Those are all state-
managed fish, and they are in great shape. They ask about red 
snapper in Minden, Louisiana, which is almost in Arkansas. So 
it goes to show you what an issue this is for recreational 
anglers all around Louisiana certainly and around the Gulf 
Coast. So this is an important fish. It is one that we need to 
make right. We need to fix this for the recreational sector. I 
appreciate the efforts that are going on here today.
    More importantly than any of that, I am a fisherman and I 
am a father. I came up fishing with my dad and creating all 
these great memories on the water. The clearest memories I have 
as a kid are on a boat with my dad, and so I wanted to pass 
those same sorts of memories on to my kids. And just recently, 
this past summer, I was on a boat with my two sons, 10-year-old 
and 7-year-old sons. I took them red snapper fishing for the 
first time. It was during the 9-day season. My 7-year-old, and 
if you know anything about fishing in Louisiana, you find the 
first rig in more than about 60 feet of water, throw anything 
you've got straight to the bottom, and you are going to have a 
red snapper on your line before you click the button. Well, 
sure enough, he hooked into one. It almost pulled him over the 
side of the boat. The look on his face as he was struggling and 
laughing and crying a little bit to get this fish in was 
priceless, and we had a great day. Hopefully this bill will 
allow for many more days like that.
    Let's go back 2 weeks ago, 2 weeks ago from today, we went 
fishing, same, me and my two sons. We were catching trout, red 
fish; red snapper is closed, as we mentioned. My 7-year-old 
son, who is now 8, looked out in the distance from the marsh, 
and he could see an oil rig, which is where we had been fishing 
during the summer. We were having kind of a slow day, and he 
said, Dad, do you think we can maybe go catch some red snapper. 
I said, No, we can't go catch red snapper today. He said, Why? 
I said, Well, because we will get in trouble. And he said, Why? 
I said, Well, because the Government says we can't. And he 
said, Are the fish gone? I said, No, there are more out there 
than there ever has been. He stopped for a second, and he 
looked up at me, and he said, Well, that is just stupid.
    Sometimes it takes simplifying it down to the voice of a 7-
year-old kid to realize that what we are doing here is not 
working. Now, I corrected him for being disrespectful, but, in 
the end, he is right. This is not working. We appreciate 
Congressman Miller's efforts here. We hope that you will give 
this every consideration, and I thank you for your time. I am 
certainly here to answer any questions you might have.
    Mr. Fleming. Thank you.
    [The prepared statement of Mr. Cresson follows:]
 Prepared Statement of David A. Cresson, President and CEO, Louisiana 
              Chapter of Coastal Conservation Association
    Thank you for the opportunity to comment here today, and thanks 
especially to Congressman Jeff Miller for introducing the Gulf of 
Mexico Red Snapper Conservation Act which is of critical importance to 
recreational anglers in the Gulf of Mexico. My name is David Cresson 
and I am the president and CEO of the Louisiana Chapter of Coastal 
Conservation Association. CCA is the largest marine resource 
conservation group of its kind in the Nation, with more than 120,000 
members, almost all of whom are recreational anglers.
    In 2013, the Governors of four Gulf states, including Louisiana 
Gov. Bobby Jindal, sent a joint letter to the U.S. House and Senate 
leadership in which they labeled Federal fisheries management of red 
snapper ``irretrievably broken'' and called for its management to be 
transferred to a coordinated Gulf states partnership. The letter was a 
powerful declaration that the people of the Gulf Coast have lost faith 
in Federal fisheries management and for good reason. This legislation 
is a perfect opportunity to restore some of that faith.
    Saltwater recreational angling in the Gulf of Mexico is a huge 
business and a critical engine for coastal communities. It drives 
billions of dollars in economic activity each year, providing 
substantial benefits to the economy at the local, regional, and 
national levels. And yet, it was not until just this year that NOAA 
Fisheries began the long process of developing a national recreational 
fisheries policy to manage it. Historically, the agency has regarded 
recreational fishing as an after-thought and has attempted to manage 
anglers with the same tools that were developed exclusively to manage 
industrial fishing operations.

    It hasn't worked.

    The Federal management system is characterized by hard quotas and 
annual catch limits based on infrequent stock assessments and 
notoriously questionable recreational harvest data. It is a rigid 
management system designed to manage a relatively few commercial 
harvesters; not one that is conducive to creating robust recreational 
fisheries that are pursued by an extremely diverse population.
    In 2014, the red snapper season in Federal waters was 9 days and 
that was set against a red snapper population that many marine 
scientists believe is the healthiest it has ever been. In many places 
in the Gulf, it is not uncommon to hear anglers say that it is 
impossible to get a bait past the red snapper to catch anything else.
    And yet, Federal law has created a management regime in which as 
the fish become larger and more abundant, recreational anglers are 
penalized with shorter and shorter seasons because the recreational 
quota is caught more quickly. Conversely, using those same tools, if 
management was not working and the stock was deteriorating, 
recreational seasons would be extended and fishing opportunity 
increased because it would take longer to catch the quota.
    As it stands today, Federal management is a confusing spiral of 
uncertain regulations and greater mistrust in a management system that 
anglers increasingly see as punitive rather than constructive.
    Compounding the problem, NOAA Fisheries has embraced catch share 
programs to reward businesses that are able to count their catch to the 
pound. More than 50 percent of the entire red snapper fishery is 
already privately held by less than 400 individual commercial 
fishermen, and indications are that another 20 percent could be given 
to charter/for-hire businesses. These shares have been given away for 
free and the shareholders are allowed to fish year-round until their 
personal quota is caught. This, at a time when recreational anglers on 
their own boats face single-digit seasons on a booming stock of fish. 
It is no wonder that anglers believe they are unwelcome visitors in the 
Federal fisheries management process.
    Conversely, four of the five marine recreational fisheries that 
provide the greatest overall benefit to the Nation--speckled trout, 
redfish, striped bass and bluefish--are inshore species that are 
managed by the states. The fifth, dolphin, is managed by the Federal 
system but is a predominantly recreational species.
    The states have succeeded because their fisheries management 
systems fit the data they have available and they have made the 
investments to obtain current information to apply to that management. 
With current information in hand, state managers have more flexibility 
to adjust fishing rates and seasons to reflect current conditions. 
Whereas the Federal system imposes on millions of anglers a quote 
system designed for several hundred, the states have made the 
investments to allow fishing opportunity to go up and down with the 
health of the stock, while staying within an allowable mortality rate.
    State-based fishery management has proven to be far more effective 
for recreational fisheries, and has engineered some of the greatest 
marine conservation victories in the country. The states have a strong 
track record of managing their fishery resources in order to achieve 
the right balance between sustainability and quality fishing 
opportunities. The Gulf of Mexico Red Snapper Conservation Act would 
put proven state-based management approaches to work and solve this 
problem for millions of recreational anglers along the entire Gulf 
Coast.

                                 ______
                                 

    Mr. Fleming. Mr. Gill, you are now recognized for your 
testimony.

  STATEMENT OF BOB GILL, BOARD MEMBER, GULF SEAFOOD INSTITUTE

    Mr. Gill. Thank you, Mr. Chairman.
    Thank you, Ranking Member Sablan, and members of the 
subcommittee.
    I am Bob Gill, representing the Gulf Seafood Institute, 
which was recently formed as a nonprofit organization to focus 
on providing the availability of Gulf seafood for all. In 
summary, relative to bill 3099, we find it is an overly 
simplistic approach that doesn't achieve and improve red 
snapper management. I would like to address some of the points 
that are germane to that discussion.
    First of all, just transferring to the Gulf State's Marine 
Fisheries Commission, as has been mentioned, creates more 
problems than it solves. The Commission is a fine agency, and 
it does excellent work in the Gulf, but what is being tasked 
through this bill are beyond its capabilities. It possesses 
neither the staff, the resources, the budget, or the expertise 
to accomplish that. And, even if these resources were provided, 
the learning curve would be extraordinarily steep. You all 
understand the difficulty in red snapper management. That is 
why we are here today. It is not an easy task. It is a complex 
one.
    From the scientific side, they have no one on staff to 
conduct the assessment, and qualified assessment scientists are 
few and far between, difficult to have them. The Science Center 
in Miami is having difficulty keeping qualified assessment 
scientists on hand.
    Another issue, which has been mentioned, is funding. It is 
absolutely critical, a vast number of responsibilities being 
tasked on the Commission, but no funding is provided. And as I 
mentioned, staff, resources, infrastructure, et cetera.
    Another concern is that passage and implementation of H.R. 
3099 will dismantle the existing commercial IFQ, Individual 
Fishing Quota System. It is difficult to understand what will 
replace it. All we know is that we have a Federal system that 
is working well. The markets are orderly. The supply is 
plentiful. It is working well, but something will have to 
replace it if H.R. 3099 is implemented. We certainly don't want 
to go back to what we had previously. It would be difficult to 
conjecture a similar system being established under this bill.
    Mr. Fleming. Mr. Gill, can you bring that microphone 
closer. We are going out to the Internet. We are having a 
little difficulty picking up, so if everyone will remember to 
be sure and speak directly into the microphone.
    Mr. Gill. My apologies, Mr. Chairman.
    So that will create a problem from the market standpoint. 
In addition, as you mentioned, the recent changes on the for-
hire sector, they are at peril under this bill. There is no 
protection that says the advances being made in that part of 
the recreational sector will be maintained, and they are on 
their way to counting fish and getting accountability to fish 
under their purview.
    In addition, the allowance of not following Magnuson-
Stevens Act precisely just to the extent practicable raises the 
issue of whether the stock is at risk for sustainability, so we 
have concerns in that regard. It would be the only species that 
is not fully under the Magnuson-Stevens Act.
    Finally, the fundamental issue that is at hand here in 
terms of the red snapper fishery is not being addressed at all. 
In fact, it is not addressed in any management plan, be it 
Federal or state, and that is numbers. The numbers suggest that 
if they are not addressed, it is not possible to have a 
reasonable season or time. For example, the coastal resident 
anglers in the Gulf are estimated at 3 million anglers. It is 
estimated over 23 million angler trips per year. And that is 
just coastal residents. It does not include the tourists that 
come from beyond the coast. If the average weight of the fish 
is 7 pounds, under the current quota, there is 700,000 fish 
available, so you have 23 million angler trips from just 
coastal residents looking for 700,000 fish. It doesn't work, 
and this current system doesn't address that. Future systems 
need to, and, without it, there is no real solution.
    So, in summary, we do not see H.R. 3099 as being helpful to 
the solution. We think the Council process can improve the 
situation and come up with a good solution, and I appreciate 
the time and opportunity to express our views. Thank you.
    Mr. Fleming. Thank you, Mr. Gill.
    [The prepared statement of Mr. Gill follows:]
 Prepared Statement of Bob Gill, Owner, Shrimp Landing, Crystal River, 
            Florida representing the Gulf Seafood Institute
    Chairman Fleming, Ranking Member Sablan, and members of the 
committee, my name is Bob Gill and I am pleased to be here to testify 
before you today on H.R. 3099, the Gulf of Mexico Red Snapper 
Conservation Act of 2013. A Naval Academy graduate and Ocean Engineer, 
I am the owner of Shrimp Landing, a diversified, dockside wholesale/
retail seafood business located in Crystal River, Florida. I am a 
former member and chairman of the Gulf of Mexico Fisheries Management 
Council, a current member of the Gulf Council's Science and Statistical 
Committee and a member of its Reef Fish Advisory Panel. For purposes of 
today's hearing, I will be speaking as a board member of the Gulf 
Seafood Institute (GSI), a broad-based trade group representing all 
facets of the Gulf of Mexico seafood supply chain from water to table.
    Formed in July, 2013, the Gulf Seafood Institute (GSI) came 
together to protect the Gulf's unique culture and environment while 
elevating the Gulf seafood brand with consumers, customers and policy 
leaders through advocacy, education and science. The GSI's board of 
directors represents every Gulf state as well as every aspect of our 
industry--harvesters, processors, wholesalers, retailers, restaurateurs 
and the charter-for-hire community--and is positioned to be a leading 
voice on key issues including sustainable management, seafood safety, 
disaster mitigation and recovery, and data collection. All our members 
share the common value of working to make healthful and abundant Gulf 
seafood available to all. Additionally, GSI seeks to bolster fisheries 
science and research to help preserve the Gulf seafood resource and 
contribute to the longevity of our industry.
    Today, I will briefly highlight the challenges we face with the 
current recreational red snapper management structure in the Gulf and 
ways that the system can and should be improved for the recreational 
community. Per the committee's request, I will focus the majority of my 
testimony on whether the proposed regional red snapper management 
structure outlined in H.R. 3099 is the correct approach to solving this 
complex management struggle.
Commercial Red Snapper Management in the Gulf is WORKING:
    It is very important to understand that the current red snapper 
program on the harvest side is working. The species is no longer 
undergoing overfishing and is now being managed under a rebuilding plan 
which will allow the species to rebuild back to target population 
levels. The commercial red snapper Individual Fishing Quota (IFQ) 
program, which began in 2007, has reduced the number of vessels and 
improved the operation of this fishery. The IFQ program now provides 
the harvesting sector with flexibility to fish during times that suit 
their needs and the needs of the market resulting in less pressure on 
the fishery, less pressure on the resource and a consistent supply of 
red snapper to meet consumer demand. While IFQs certainly are not a 
panacea for all species or all sectors, in terms of the commercial red 
snapper fishery in the Gulf, IFQs have proven to be a very effective 
tool.
    Unfortunately, the recreational red snapper sector has yet to find 
a similar satisfactory solution and Federal management of this side of 
the business remains in turmoil. Fishery managers, still relying on the 
antiquated ``days at sea'' model for management, have drastically 
reduced fishing days for recreational red snapper leading to serious 
economic implications for the entire Gulf Coast economy. While I agree 
that we must take steps to improve management of recreationally caught 
red snapper, any solution that upsets the success of the commercial red 
snapper program is not a solution at all and would only harm the 
industry, the markets, seaside communities and the millions of 
consumers who depend on the year-round availability of red snapper.
The Need for Focus in the Recreational Red Snapper Fishery:
    The enormity of the recreational sector poses unique challenges in 
proper fisheries management. Not only are there millions of 
stakeholders, but there is broad diversity geographically, in landing 
sites, time of fishing and socio-economic differences across the board. 
This makes it difficult to determine the impact this sector has on the 
resource. Not only red snapper, but all the fisheries in the Gulf. And 
that difficulty translates to high expense and questionable accuracy 
and precision of the results of attempting to assess the true effect 
the recreational sector on the marine resources of the Gulf. The 
statistical surveys used thus far have not reliably provided the 
information needed for good, let alone proper, fisheries management. It 
is clear that we need to change the way we do business if we are to 
make any improvement in this area.
    Fortunately, one component of the recreational fishing community in 
the Gulf is poised to do just this. During its October meeting in 
Mobile, Alabama, the Gulf Council voted 10-7 to separate the federally 
permitted charter-for-hire community from the private anglers in the 
Gulf, setting the stage for the charter fleet to be managed 
independently for purposes of red snapper. Concurrently, GSI has been 
actively working with charter boat captains across the Gulf to generate 
support for a program to collect real-time, verifiable data on reef 
fish using technology that can be as simple as a smart phone or tablet 
application attached to a Vessel Monitoring System (VMS). These 
systems, for example the Thorium system developed by GSI member company 
CLS America, are ready to roll out and have received overwhelming 
support from fishermen, stakeholders and charter captains themselves. 
This cost-effective and sleek technology will allow fishermen to 
quickly and accurately report their catch to a secure database 
administered by the National Oceanic and Atmospheric Administration 
(NOAA) thus providing regulators with enough data to more fairly and 
equitably manage red snapper for charter boat fishermen and their 
customers. In response to overwhelming support from the Gulf community, 
the Senate Commerce, Justice, Science Appropriations Subcommittee 
included $2 million in their fiscal year 2015 bill to help Gulf Coast 
charter boat captains purchase these electronic data collection 
instruments. While the current appropriations process is in flux, GSI 
looks forward to continuing to work with this committee and the 
appropriators to see ground-breaking data collection programs supported 
into the 114th Congress.
H.R. 3099, The Gulf of Mexico Red Snapper Conservation Act:
    Overall, H.R. 3099 will not solve the recreational red snapper 
management challenges in the Gulf. Simply shifting management authority 
from the Council and NOAA to another agency, the Gulf States Marine 
Fisheries Commission (the Commission), will not address the fundamental 
issues of a lack of data, rapidly increasing participation by huge 
numbers of private anglers, and a lack of accountability measures to 
address egregious overages on the recreational side. Further, H.R. 3099 
does not authorize any new funding for the Commission to carry out its 
new responsibilities under this bill, neither does it address how the 
resource should be equitably allocated between the five Gulf states--an 
issue the five state resource agencies have had great difficulty 
solving after repeated attempts. Below are several points of concern 
with H.R. 3099 that the committee should understand before proceeding:

H.R. 3099 Tasks the Commission with Tremendous New Responsibilities 
        with No New Resources:
    H.R. 3099 effectively takes management authority of the entire 
Federal red snapper fishery away from the Department of Commerce and 
turns it over to the Gulf States Marine Fishery Commission (the 
Commission) and, ultimately, the five Gulf states. While the Commission 
does great work facilitating programs that benefit Gulf fisheries on 
the whole, they are not currently equipped to handle the mission of a 
de facto fisheries management agency as outlined in this legislation. 
Further, given the time lines outlined in the legislation, I question 
whether the Commission could, even if given ample financial backing, 
meet staff and infrastructure needs required to comply with the 
legislation.
    Congress established the Commission in 1949 with the mission of 
promoting better utilization of Gulf fisheries while promoting and 
protecting such fisheries and preventing physical waste of the 
resource. The Commission is comprised of three members from each of the 
five Gulf states and makes recommendations to the five state 
governments regarding management of Gulf fisheries. These 
recommendations are based on scientific studies made by experts 
employed by state and Federal resource agencies. While I have the 
utmost respect for the Commission, it is questionable whether they, and 
ultimately the individual states, would be any better equipped than the 
Department of Commerce, NOAA and the Gulf of Mexico Fishery Management 
Council to make management decisions for red snapper.

    Specifically, H.R. 3099 tasks the Commission with vast new 
responsibility, including:

    <bullet> Determining a new data collection plan for red snapper 
            within 1 year;

    <bullet> Determining a plan to undertake annual red snapper stock 
            assessments within 1 year;

    <bullet> Preparing a red snapper fishery management plan within 1 
            year;

    <bullet> Holding public hearings in each of the five Gulf states 
            within 1 year;

    <bullet> Establishing procedures for and undertaking a public 
            comment program on the fishery management plan;

    <bullet> Establishing procedures for the five Gulf states to 
            develop their respective red snapper management plans;

    <bullet> Determining whether the five Gulf states are adequately 
            adopting and are in compliance with their respective 
            management plans;

    <bullet> Ensuring each Gulf state is effectively enforcing their 
            management plans;

    <bullet> Certifying that overfishing is not occurring;

    <bullet> Offering Gulf states remedies in the event of 
            noncompliance;

    <bullet> . . . and more.

    This is a tremendous level of new responsibility for the Commission 
which is already facing significant funding challenges for their 
current programs. If the Commission is expected to effectively 
undertake the mission outlined in H.R. 3099, Congress must provide 
adequate funding and support from the outset.
H.R. 3099 Does Not Address Increased Recreational Fishing Effort:
    Based on the current quota and allocation, and assuming a very 
conservative average of 7 pounds per fish, there are approximately 
700,000 red snapper available to be caught by the recreational sector 
in the Gulf. According to the best available estimates (Marine 
Recreational Fisheries Statistical Survey--MRFSS/Marine Recreational 
Information Program--MRIP), there are approximately 3,000,000 coastal 
resident private anglers in the Gulf and another 3,000,000 tourists 
that want to go fishing in the Gulf each year. In fact, only fishing 
trips targeting catch red snapper more than consume the available 
resource with only one person on the boat. It is clear that resource 
managers must determine a management plan that addresses the number of 
anglers and angler trips or else the limited supply of red snapper will 
always fall woefully short of demand.
H.R. 3099 Shuts Down Effective Management of the Commercial Red Snapper 
        Fishery:
    This legislation says nothing about preserving the current, 
effective management regime for commercially caught red snapper in the 
Gulf. As I discussed earlier in my statement, red snapper management in 
the Gulf commercial fishery is WORKING. Consumer demand for red snapper 
continues to grow and our commercial community is the primary source 
for meeting this demand on the part of retailers and restaurants 
throughout the country. As currently written, H.R. 3099 would take the 
entire fishery, recreational and commercial, and turn it over to the 
Commission and the five Gulf states. Without some explicit language 
preserving the current commercial management structure and the funding 
to replicate the existing infrastructure, this legislation threatens to 
roll back the clock on a management program that has brought the red 
snapper fishery back to life and onto a solid road toward recovery.
    Additionally, H.R. 3099 states that quotas may be altered 3 years 
from enactment. I am concerned that this leaves the door open for 
reassessment of the current allocation between recreational and 
commercially caught red snapper. The current commercial allocation 
based on historic catch numbers must be preserved to ensure consumer 
demand for red snapper can continue to be met.
H.R. 3099 Needs More Thorough Economic Analysis:
    Section 10 calls for the Commission to perform biannual economic 
analyses with corresponding reports of the beneficial impacts of the 
red snapper fishery. While I applaud the intent to incorporate economic 
considerations in the program, the section fails to achieve its 
purpose. In the first place, the economic analyses are directed to 
consider the impacts of the red snapper fishery. This is not helpful to 
understanding the benefits to the Nation of this fishery which is the 
heart of the Magnuson-Stevens Act (MSA). The MSA calls for managing to 
maximize the net benefits to the Nation which is not the same as 
economic impact. The MSA has it right. We need to detail what the 
positive benefit results from this fishery, not what the net cash-flow 
to the Gulf as called out for in this section. Second, all the called 
out for activities are for recreational activities. There are none 
specified for the commercial benefits such as dealers and processors. 
Finally not included in the required analysis are the social 
consequences of the red snapper fishery. Surely the effect on the 
people of this Nation and in the Gulf are as important as the dollars 
that result? I note that the Commission will probably lose its current 
economist position before implementation of this bill, if passed, and 
will have no economists on staff to accomplish this task, requiring yet 
additional funds to effect Section 10.
H.R. 3099 Does Not Maintain Federal Sustainability Standards Under 
        Magnuson-Stevens Act:
    Section 5 of H.R. 3099 requires the Secretary of Commerce to 
determine if the Commission's red snapper fishery management plan is 
compatible, ``to the extent practicable'' with the sustainability 
requirements outlined in the Magnuson-Stevens Act (MSA). This loophole 
may render red snapper as the only major fishery in the entire United 
States that is not fully compliant with important Federal 
sustainability guidelines needed for both preservation of the stock as 
well as utilization of the species. Should red snapper come out of 
compliance with MSA standards, it would be questionably sustainable 
with the resulting devastating impact to the resource and all citizens.
Accountability Measures Remain Unclear:
    Under H.R. 3099, the remedy for states that do not comply with the 
new fishery management plan as reported by the Commission is possible 
closure of Federal waters adjacent to the affected state(s). This 
strategy leaves state waters open, and possible continued fishing with 
significant impact to the overall stock, as well as inevitable cross 
boundary issues of Federal waters of an adjacent state, further 
imperiling stock status. In effect, the proposed remedy is a small slap 
on the wrist, but not effective in protecting the stock. Stricter 
accountability measures must be explicitly stated in the legislation.
Enforcement Challenges:
    H.R. 3099 turns management of the red snapper fishery over to the 
five Gulf states and grants the Commission oversight of these state 
management programs. As previously stated, the Commission is comprised 
primarily of representatives from the five Gulf states and is, 
effectively, run by these states. As such, enforcement and oversight of 
the red snapper management plans put forward by the states would be, to 
a certain extent, self-enforced leaving the door open for a slippery 
slope of missed deadlines, loose enforcement and future mismanagement. 
I hold the Commission in the highest regard, however when it comes to 
preservation of resources as precious as red snapper, only the 
strictest standards for management and enforcement should prevail.
Unknown Outcomes for the Charter Fleet:
    As mentioned previously, the Gulf Council recently voted to 
separate the federally permitted charter-for-hire fleet from the 
private angling community for purposes of red snapper management in the 
Gulf. This is a huge step forward in providing effective and 
accountable management for the charter community and their customers 
who come to the Gulf from all over the country to go fishing. Turning 
management of the entire red snapper fishery over to the Commission and 
the states threatens to dissolve this new charter program and rope 
professional for-hire fishermen and their customers back into the 
current unmanageability of the private angling community. Language 
should be included in the legislation that preserves this new charter-
for-hire sector and keeps its management as part of the Federal/Council 
process.

    While clearly H.R. 3099 is not the right solution for the 
management concerns facing private anglers in the Gulf, there are 
options that the Council can consider, without any intervention on the 
part of Congress. However, private anglers must be willing to 
participate in the management of this stock in same way as demonstrated 
by commercial harvesters and professional for-hire harvesters. One such 
method for accomplishing this is the issuance of separate and limited 
numbers of red snapper permits which would allow the take of a limited 
number of fish per person per year. These could be sold by lottery or 
in some other way deemed to be fair and equitable by the state and 
Federal fisheries management authorities. Fish landed without 
possession of this license would be equivalent to landings after the 
season is closed. These permits/licenses should be sold at a 
significant premium to the state recreational licenses and could work 
similar to the Federal Duck Stamp Program which allows hunters to 
harvest migratory waterfowl. In this way the private recreational 
fishing effort for this particular species can be reduced or at least 
limited and will allow private fishermen to harvest red snapper 
whenever is most convenient to them rather than during a brief derby 
period in the middle of the summer. H.R. 3099 offers nothing toward the 
development of a similar system for red snapper. A more cynical view of 
the intent of H.R. 3099 therefore is that it is an attempt to hand the 
management of this species to entities which will simply allow greater 
harvest and therefore the potential for wholesale mismanagement of the 
fishery. Two of the Gulf states have repeatedly and systematically 
allowed harvest beyond quotas established by NMFS, to the detriment of 
their fellow states. One additional state in agreement with this method 
of management would establish a majority for that approach within the 
Commission.
    Furthermore, if red snapper is allowed to be overfished by the 
states or the Commission, then NMFS/NOAA Fisheries may be pressured to 
more stringently regulate those fisheries remaining under their 
jurisdiction, in particular the Gulf Shrimp Fishery. Shrimp trawl 
bycatch has been sufficiently regulated and tied to red snapper stock 
abundance that it is a minor factor in the recovery of the red snapper 
stocks. Ironically the shrimp fishery and shrimp trawl bycatch would be 
the only real means left available to NMFS for controlling the harvest 
of the stock if this bill were to be implemented.
    With this testimony, I hope I have provided the committee with more 
clarity on how H.R. 3099 will impact the Gulf of Mexico seafood 
community and the consumers who depend on them. While I applaud the 
sponsors of H.R. 3099 for their effort to take some action, it seems 
that a satisfactory solution for managing the recreational sector of 
this fishery is still a long way off. However, serious strides have 
already been made in terms of the commercial and charter components of 
the fishery under the current Council-run process. I firmly believe 
that a solution to the challenges facing private red snapper fishermen 
can be developed without much change in Federal law as it is currently 
written. What it takes is committed leaders from the region addressing 
the real issues and hammering out a middle ground that works for the 
resource and all the stakeholders. No easy chore, but attainable if the 
right minds are set to it.
    I look forward to working with the committee on these important 
issues and I welcome any questions you may have.

                                 ______
                                 

    Mr. Fleming. Mr. Green, you are now recognized for 5 
minutes. Be sure that microphone is close by.

STATEMENT OF CAPTAIN JIM GREEN, VICE PRESIDENT, DESTIN CHARTER 
       BOAT ASSOCIATION, GULF OF MEXICO CHARTER FISHERMAN

    Mr. Green. Thank you, Chairman Fleming, Ranking Member 
Sablan, and members of the committee. My name is Captain Jim 
Green, and I am honored to be here today to testify before you 
on H.R. 3099, the Gulf of Mexico Red Snapper Conservation Act 
of 2013. I am 33 years old and a lifelong resident of Destin, 
Florida. Reef fish management in the Gulf of Mexico is 
incredibly important to me as it predicts my future. I am a 
third-generation fisherman out of Destin. I have worked on 
charter and head boats for 25 years, and I have been a captain 
for 12. I manage a company that has three federally permitted 
vessels that carries around 15,000 anglers a year. I am also 
the chairman of the Ad Hoc Red Snapper For-Hire Advisory Panel 
for the Gulf Council.
    I am speaking to you not only as a federally permitted 
business operator but as the vice president of the Destin 
Charter Boat Association, which represents more than 70 
federally permitted vessels. The for-hire fishing industry is 
an established part of Florida's Gulf Coast economy, and Destin 
is a prime example of that. With red snapper being a 
cornerstone fishery, it deserves careful management, but I 
don't believe that H.R. 3099 is the best way to move forward.
    We can all agree that recreational red snapper management 
is failing. While all recreational fishermen have suffered, 
federally permitted businesses and our customers have borne the 
brunt of it. Federal seasons are steadily being reduced, 
despite the recovering snapper stock, and for-hire fisherman 
have had a hard time trusting the data. We have had huge 
overages in our quotas and now have to deal with significant 
buffers to prevent these overages. These buffers, combined with 
unprecedented, noncompliant state seasons, have shortened the 
Federal season to the shortest in history. Americans who are 
not fortunate enough to own their own boats were almost 
completely shut out of this fishery this year since federally 
permitted vessels are not allowed to fish in the far more 
generous state water seasons. This year, in Florida, state 
waters were opened for private anglers and state guide boats 
for 53 days. Federally permitted vessels had 9. Our industry 
appreciates the interest in helping recreational fishermen 
access a growing red snapper population, but this legislation 
would hurt the efforts of charter captains like me trying to 
make things better.
    For-hire management must move in a new direction. A lot of 
the leadership in our industry has worked since 2008 to move 
toward a sustainable and accountable management plan for for-
hire vessels.
    The Gulf Council recently separated two components of the 
recreational fishery, private and for-hire. The for-hire sector 
wants to be able to continue to work with the Council and all 
stakeholders to map our way forward. This bill would eliminate 
our ability to do so by transferring the responsibility of red 
snapper management out of the Council's hands.
    Separating the charter and private angling sectors by 
itself does not solve the recreational management problem, but 
it gives the Council the ability to create management plans 
that maximize fishing opportunities, improve data collection, 
and prevent overharvest for each component. Because the two 
sectors have different needs out of the fishery, separate 
management plans are the only way to do this. We know that 
status quo management with restrictive seasons and bag limits 
isn't working, and we are working hard to find better 
approaches to our sector, including a real-time data reporting 
system.
    The Destin Charter Boat Association, as well as many other 
charter captains across the Gulf, do not want to be a part of a 
state-based system like the one set up in H.R. 3099. We are 
Federal permit holders and want a Federal management plan. 
Transferring authority of red snapper to the Gulf State 
Commission would create another layer of bureaucracy to 
navigate through. Giving authority for red snapper management 
to the states might be a solution for private anglers, but the 
Council is currently considering an amendment on this topic, 
and they are in the best position to refine the details of that 
plan through the stakeholder process that was set up through 
the Magnuson-Stevens Act.
    I am not in a position to suggest what is best for private 
anglers, but I am confident there are ways to solve the 
problems of short Federal seasons and ultimately data for these 
anglers. We just need to focus on solutions that do not hurt 
the other components of the fishery. I hope my testimony today 
has helped the committee better understand the challenges 
facing this fishery and how we might resolve them in ways that 
respect all stakeholder needs. The charter industry wants to 
continue to work with the Council and design a Federal 
management plan that works for our industry. We need your 
support as we work to modernize data collection and also 
develop and test new management methods to that end.
    We would like to especially thank Congressman Whitman for 
his legislation to ensure fishermen are more involved in data 
collection, H.R. 3063; and Congressman Byrne for his bill to 
eliminate Section 407(d) from the Magnuson-Stevens Act. I, and 
the rest of the Destin Charter Boat Association, look forward 
to working with the committee and the Council on these issues. 
Thank you for the opportunity to testify today. I look forward 
to answering any questions you may have.
    Mr. Fleming. Thank you, Captain.
    [The prepared statement of Mr. Green follows:]
Prepared Statement of Jim Green, Gulf of Mexico Charter Fisherman, Vice 
              President of Destin Charter Boat Association
    Chairman Fleming, Ranking Member Sablan, and members of the 
committee, my name is Capt. Jim Green and I am honored to be here today 
to testify before you on H.R. 3099, the Gulf of Mexico Red Snapper 
Conservation Act of 2013.
    I am 33 years old and a lifelong resident of Destin, Florida. Reef 
Fish Management in the Gulf of Mexico is incredibly important to me as 
it predicts my future. I am a second generation fisherman out of 
Destin. I have worked on Charter and Headboats for 25 years and have 
been a captain for 12 years. I manage a company that has three 
federally permitted vessels that carry around 15,000 anglers a year. I 
am a voting member of the Ad Hoc Red Snapper For-Hire Advisory Panel 
for the Gulf Council.
    I'm speaking to you not only as a federally permitted business 
operator, but as the Vice President of the Destin Charter Boat 
Association, which represents more than 70 federally permitted vessels. 
The for-hire fishing industry is an established part of Florida's Gulf 
Coast economy, and Destin is a prime example of that. A 2014 study 
commissioned by the city of Destin shows that in 1 year, over 300,000 
out-of-region tourists injected over $90 a day into Destin's economy. 
More importantly for this committee to know, of those 300,000 visitors, 
over 44 percent stated they made Florida their destination choice due 
to the opportunity to go fishing on charter boats. With Red Snapper 
being a cornerstone fishery it deserves careful management, but I don't 
believe that H.R. 3099 is the best way to move forward.
    We can all agree that recreational red snapper management is 
failing. While all recreational fishermen have suffered, federally 
permitted businesses and our customers have borne the brunt of it. 
Federal seasons are steadily being reduced despite the recovering 
snapper stock, and for-hire fishermen have a hard time trusting the 
data. We had huge quota overages for years, and now have to deal with 
significant buffers to prevent these overages. These buffers, combined 
with unprecedented noncompliant state seasons, have shortened the 
Federal season to the shortest in history. Americans who are not 
fortunate enough to own their own boats were almost completely shut out 
of the fishery this year, since federally permitted vessels are not 
allowed to fish in the far more generous state water seasons. This year 
in Florida, state waters were open for private anglers and state guide 
boats for 53 days; federally permitted vessels had 9 days.
    Our industry appreciates the interest in helping recreational 
fishermen access a growing red snapper population, but this legislation 
would hurt the efforts of charter captains like me to make things 
better.
    For-hire management must move in a new direction. A lot of the 
leadership in our industry has worked since 2008 to move toward a 
sustainable and accountable management plan for for-hire vessels only. 
The Gulf Council recently separated the two components of the 
recreational fishery--private anglers and charter-for-hire vessels. The 
for-hire sector wants to be able to continue to work with the Council 
and all stakeholders to map our way forward. This bill would eliminate 
our ability to do so by transferring responsibility for all red snapper 
management out of the Council's hands.
    Separating the charter and private angling sectors by itself does 
not solve the recreational management problem, but it gives the Council 
the ability to create management plans that maximize fishing 
opportunities, improve data collection, and prevent overharvests for 
each component. Because the two sectors have different needs out of the 
fishery, separate management plans are the only way to do this. We know 
that status quo management with restrictive seasons and bag limits 
isn't working, and we are working hard to find better approaches for 
our sector, including a real-time data reporting system.
    The Destin Charter Boat Association, as well as many other charter 
captains across the Gulf, does not want to be a part of a state-based 
system like the one set up by H.R. 3099. We are Federal permit holders 
and want a Federal management plan. Our Federal permits are for 
multispecies, and dealing with one set of regulations for red snapper 
and another set for everything else would be extremely confusing. 
Transferring authority for red snapper to the Gulf States Commission 
would also create another layer of bureaucracy to navigate through.
    Giving authority for red snapper management to the states might be 
a solution for private anglers, but the Council is currently 
considering an amendment on this topic, and they are in the best 
position to refine the details of the plan through the process that was 
set up by the Magnuson-Stevens Act. I am not in a position to prescribe 
what is best for private anglers. But I am confident that there are 
ways to solve the problem of short Federal seasons and untimely data 
for these anglers, we just need to focus on the solutions that do not 
hurt the other components of the fishery.
    I hope that my testimony today has helped the committee better 
understand the challenges facing this fishery and how we might resolve 
them in ways that respect all stakeholders' needs. The charter industry 
wants to continue to work with the Council to design a Federal 
management plan that works for our industry. We need your support as we 
work to modernize data collection and also develop and test new 
management methods. To that end, we would like to especially thank 
Congressman Rob Wittman for his legislation to ensure fishermen are 
more involved in the data collection process (H.R. 3063) and 
Congressman Bradley Byrne for his bill to eliminate Section 407(d) from 
the Magnuson-Stevens Act (H.R. 4464). H.R. 4464 would give recreational 
fishermen more flexibility to try different management approaches that 
work best for us. Both of these bills would allow everyone to truly 
benefit from the recovery of red snapper.
    I and the rest of the Destin Charter Boat Association look forward 
to working with the committee and Council on these issues. Thank you 
for the opportunity to testify, and I look forward to answering any 
questions you may have.

                                 ______
                                 

    Mr. Fleming. Mr. Pearce, you are now recognized for 5 
minutes, sir.

 STATEMENT OF HARLON PEARCE, OWNER, HARLON'S LA FISH, KENNER, 
                           LOUISIANA

    Mr. Pearce. Thank you, Mr. Chairman, and Ranking Member 
Sablan, and members of the committee.
    My name is Harlon Pearce, and I welcome the opportunity to 
speak with you today on the issue of recreational red snapper. 
I am going to kind of focus on the legislation at hand and also 
focus on what the Council has been doing and what we have been 
trying to do to move ahead.
    As Mr. Gill has said, House Bill 3099 really doesn't have 
the funding source; it doesn't have the personnel in place; and 
it is a problem that could jeopardize within 3 years all the 
hard work in the harvesting component, all the hard work in the 
shrimp component of the fishery that has helped grow this red 
snapper fishery to where it is. We want to make sure that any 
legislation that passes--first of all, I don't believe any 
legislation is necessary, I think we can solve our problems 
with the Council--it doesn't jeopardize anything, only the hard 
work that has been done now and in the past and what we will be 
doing now. So, with that said, I am not in favor of H.R. 3099 
for lots of reasons.
    At the council level and at the fishery level, we have 
three components. We have a harvesting component. We have a 
charter-for-hire component. We have a private rec component. 
All these components prosecute their fisheries differently, and 
they deserve a different fishery management plan. With the 
passage of Amendment 40, we now have an independent charter-
for-hire component that can begin to develop a business plan 
for that component of the fishery, all fisheries, hopefully, 
which is sorely needed.
    In the past, the charter-for-hire component would come to a 
meeting and the National Marine Fisheries Service would say, by 
the way, amberjack is closed on Friday. These guys would have 
bookings out for months in advance and have to figure out what 
to do. They clearly needed a way to develop a better business 
plan.
    Yesterday and the day before, the charter AP chaired by Mr. 
Green met and came up with some excellent ideas. They wanted 
the Council first off to begin development of an electronic 
monitoring program for the fishery. The Council has also been 
involved with the South Atlantic Council in working together to 
put all the parts of that puzzle together to get that 
electronic monitoring program for the charter-for-hire 
together, so that is in the works and could be moving ahead 
very quickly. The charter-for-hire component clearly wants to 
stay accountable, stay within our allocation. The way they 
would want to do that is, first off, they suggested that the 
Council go to one fish rather than two-fish limit for the 
charter-for-hire. They suggested that the Council split the 
season for the charter-for-hire component so that 66 percent of 
the season would be done now, and then they would see what they 
have caught so they would not overharvest their allocation. 
They clearly wanted to stay within their allocation, so they 
are working hard to do that. And then electronic reporting to 
me is a necessary component of that. We have also been working 
on funding sources through the Senate committee and through 
NMFS to try and find money to buy VMSs so that hopefully we 
could find some funding sources to count fish into 2015. That 
is definitely necessary.
    Regional management, I am in favor of regional management 
for the private rec fishery. Louisiana, my state of Louisiana, 
is submitting programs as we speak to the Council to see if we 
can get that done. I am in full support of that. I think that 
the way to manage the private recreational fishery is through 
regional management, and I think that we will be discussing 
that at the Council in January. So I hope that that will 
happen.
    I am chairman of the Data Collection Committee, and that is 
where the chink in our armor is. There is no doubt about that. 
Our dependence on MRIP needs to change. We need to go to real-
time electronic reporting to solve our problems. MRIP just had 
a recalibration workshop that basically said it is still a work 
in progress. We don't need a work in progress. We need numbers 
that we can manage our fishery with, and we just have to take 
the attitude of the East and West Coast and say let's just do 
it and get it over with.
    Again, I don't really believe that legislation is 
necessary. I think that we can get our job done at the Council 
and that we are trying to get the job done now. The Council is 
a tedious and cumbersome process at best. It takes time. When I 
first got on the Council, my first battle cry was, I want to 
move at the speed of business, not the speed of government, but 
that is very difficult at the Council. But I believe we are 
actively trying to work in that direction, and the Council 
needs to consider the development of a private recreational 
fishery management plan to help them move into the future and 
help them do the things necessary to grow their fishery into 
the future, but we have to start with the right numbers. We 
have to start with the right data so we can manage it. I am a 
firm believer in the LA Creel program in Louisiana. I am a firm 
believer in what Alabama and these other states are doing. We 
don't need to reinvent the wheel. We just need to add grease to 
get it moving quicker.
    Thank you, Mr. Chairman.
    Mr. Fleming. OK. Well, thank you, Mr. Pearce, for your 
valuable testimony.
    [The prepared statement of Mr. Pearce follows:]
 Prepared Statement of Harlon Pearce, Owner, Harlon's LA Fish, Kenner, 
                               Louisiana
    Chairman Fleming, Ranking Member Sablan, and members of the 
committee, my name is Harlon Pearce and I welcome the opportunity to 
speak with you today on the issue of recreational red snapper 
management in the Gulf of Mexico, as well as on H.R. 3099, the Gulf of 
Mexico Red Snapper Conservation Act of 2013. I am the owner of Harlon's 
LA Fish, a seafood wholesaler based in Kenner, Louisiana. I am a member 
of the Gulf of Mexico Fisheries Management Council, and I am president 
of the Gulf Seafood Institute, a non-profit organization representing 
the entire Gulf Coast seafood supply chain, including professional and 
recreational fishermen, processors, retailers, restaurateurs and the 
consumers who depend on them.
    red snapper is important to consumers and the gulf coast economy
    Effective and fair management of Gulf red snapper is not only a 
concern for the recreational fishing community, but for the broader 
Gulf Coast economy and consumers nationwide. While red snapper is a 
highly coveted sport fish, consumer demand for red snapper at the 
retail and restaurant level remains high. Red snapper is an iconic 
American favorite, and according to the National Restaurant 
Association, seafood sales are one of the biggest drivers of the 
important tourism industry in Louisiana, Florida and the other Gulf 
states. Consumer surveys indicate that tourists closely identify the 
delicious and mild flavor of red snapper with the American Gulf Coast. 
For these reasons, preserving the commercial harvest of red snapper is 
of the utmost importance to the entire seafood supply chain across the 
Gulf.
        commercial red snapper management in the gulf is working
    Fortunately, the current management structure for commercially 
caught red snapper in the Gulf is WORKING. Starting in 2007, the Gulf 
Council and NOAA Fisheries (NMFS) implemented an Individual Fishing 
Quota (IFQ) program for the harvesting component of the Gulf fishery 
with initial allocations to active commercial fishermen based on 
historic catch data. While IFQs may not be a panacea for all sectors or 
all species, in the case of commercial red snapper, this system has 
proven a huge success. The species is no longer undergoing overfishing 
and is now being managed under a rebuilding plan which will allow the 
species to rebuild back to target population levels. The current 
commercial red snapper IFQ program provides fishermen with the 
flexibility to fish during times that suit their needs and the needs of 
the market resulting in a safer, more efficient fishery. With the 
ongoing successes happening in the commercial red snapper fishery, it 
is imperative that any changes to current law be designed NOT to 
undermine these important advances.
         management advances in the charter-for-hire community
    Another very important development in the Gulf red snapper 
community is the newly formed, separate charter-for-hire component. 
During our October meeting in Mobile, Alabama, the Gulf Council voted 
10-7 to pass Reef Fish Amendment 40 which separates out the federally 
permitted charter-for-hire community from the private angling 
community. This action, widely supported by charter boat captains and 
their customers, the seafood community, and conservationists, will 
increase stability for the for-hire component, increase flexibility in 
future management of the recreational sector, and minimize the chance 
for recreational quota overruns which could jeopardize the rebuilding 
of the red snapper stock. By managing the charter component separately, 
state and Federal managers can be more responsive to the needs of 
professional fishermen and their hundreds of thousands of non-boat 
owning customers who must plan their travel to the Gulf Coast months in 
advance.
                importance of electronic data collection
    A key benefit of separating out the charter-for-hire component in 
the Gulf is that the stage is now set for a comprehensive electronic 
data collection program that will revolutionize the way in which we 
capture and process data on red snapper in the Gulf. For years, 
stakeholders across the Gulf have prodded NOAA and the Southeast 
Fishery Science Center (SEFSC) to utilize real-time, verifiable 
electronic data collected by fishermen at sea in order to better 
understand the abundance of this resource. Unfortunately, the Federal 
Government still relies on a system of regional telephone surveys 
administered by the Marine Recreational Information Program (MRIP) to 
determine the status of this important species. Meanwhile, new 
technology as simple as a smart phone app connected to a Vessel 
Monitoring System (VMS) on a charter boat exists and must be 
incorporated into the Federal Government's data collection program.
    GSI member company CLS America is working closely with 
representatives from the Gulf charter-for-hire community, NOAA and 
other stakeholders to identify ways to incorporate their Thorium 
product into an electronic data collection program for the Gulf charter 
community. GSI also worked with Congress to include $2 million in the 
Senate version of the FY 2015 Commerce, Justice and Science 
Appropriations bill to help cover the cost of such an electronic data 
collection program. We look forward to working with Congress to see 
this funding included in future Federal appropriations bills and have 
this important electronic data collection program off the ground in 
2015.
       private angling community in need of management solutions
    While both the commercial and charter-for-hire communities are 
seeing great management improvements in red snapper, there is no 
question that red snapper management in the private angling community 
in the Gulf is in dire straits. In fact, in March, the U.S. District 
Court for the District of Columbia ruled that the Federal Government 
violated the law by failing to properly manage the red snapper fishery 
in the Gulf by allowing recreational fishermen to exceed their share of 
the red snapper quota in 6 of the past 7 years without holding the 
sector accountable. One fundamental issue at play that of simple 
numbers: there is a huge demand on the part of fishermen and a very 
limited resource. Even if there were a significantly increased quota, 
the numbers still don't work. Based on current figures that estimate 3 
million recreational anglers in the Gulf, if 25 percent of those 
fishermen caught one, 8-pound fish each, the entire recreational quota 
would be caught leaving nothing for the remaining 75 percent of 
fishermen. Clearly, this formula is simply unsustainable. We must 
determine a way to equitably divide up the fish in a way that allows 
anglers continued access while also preserving the resource for the 
future.
    At present, the Council's primary tool for management on the 
private angling side is the ``days-at-sea'' model. This year's 9-day 
season caused great frustration among fishermen and policymakers alike, 
but strategies are on the table for moving past this limited management 
regime, such as regional management, tagging systems and more. The 
Council process as outlined under Magnuson-Stevens provides the Council 
and its stakeholders with the appropriate tools and authority to 
develop innovative solutions without any changes to Federal law. While 
the process may seem lengthy and tedious at times, I have full 
confidence that an equitable solution will be devised. As a Council 
Member and President of GSI, I look forward to working closely with our 
allies in the recreational community to develop alternative management 
systems for the betterment of all stakeholders and preservation of the 
resource itself.
                    h.r. 3099: a misguided approach
    While an overhaul in the management of recreationally caught red 
snapper in the Gulf is needed, I have serious reservations about the 
plan outlined in H.R. 3099, the ``Gulf Red Snapper Conservation Act of 
2013.'' Based on my experience as a seafood business owner and Member 
of the Gulf Council, I would like to bring the following concerns to 
the attention of the committee:

    <bullet> H.R. 3099 Does Not Take into Account Red Snapper Abundance 
            in Federal vs. State Waters: As you know, red snapper 
            primarily occurs and is caught in Federal waters, not state 
            waters, which is why it was originally placed under Federal 
            management. The legislation inaccurately states that red 
            snapper ``ordinarily are found shoreward of coastal 
            waters.'' The five Gulf states already have the authority 
            to manage fishing in state waters. If red snapper were 
            ``ordinarily'' caught in ``coastal waters,'' there would be 
            no need for Federal management at all, not to mention new 
            legislation.

    <bullet> Enforcement at the State Level will be Insufficient: H.R. 
            3099 proposes to turn over management of an overfished 
            species to the Gulf States Marine Fisheries Commission (the 
            Commission) and, ultimately, the Gulf states, thus removing 
            the National Marine Fisheries Service (NMFS)'s authority to 
            close Federal waters based on the determination that 
            overfishing is occurring. The Federal Government will also 
            lose its authority to preempt a state that allows a harvest 
            level that jeopardizes the sustainability of the stock. 
            This authority is critical to preservation of this 
            important stock. Under this proposal, effective management 
            and enforcement authority over red snapper will become even 
            more ineffective, again threatening the rebuilding of this 
            once overfished stock.

    <bullet> State Sustainability Standards Must Adhere to Federal 
            Standards under MSA: The Gulf states (primarily Florida and 
            Texas) have not adopted regulations for red snapper in 
            their state waters that are consistent with the Fishery 
            Management Plan (FMP) and rebuilding plan. Although not 
            explicitly stated, it is apparent that the standards for 
            determining ``sustainable harvest'' would be substantially 
            decreased under a state-run program.

    <bullet> Fisheries Enforcement at the Commission Level Unclear: 
            H.R. 3099 grants the Commission authority to enforce new 
            state red snapper programs. While the Commission is highly 
            qualified to make recommendations to the Governors and 
            legislatures of the five Gulf states regarding fisheries 
            management, the Commission has no regulatory or enforcement 
            authority, nor is it provided with that authority under 
            H.R. 3099. Under this bill, the process by which the 
            Commission would address overfishing in any one state could 
            allow for substantial overfishing to occur before any 
            enforcement measure, if any, is taken. This is not 
            conservation.

    <bullet> Serious Implications for the Commercial Fishing Community 
            and Consumers: Under H.R. 3099, the states would be allowed 
            to completely eliminate commercial red snapper fishing 
            after 3 years, with no protections for fishermen's 
            investments, including vessels, infrastructure, Federal 
            permits and quotas. Further, the entire commercial IFQ 
            system, administered by NMFS, would be eliminated leaving 
            commercial harvesters and the consumers who rely on them at 
            risk for losing their entire allocation, not to mention 
            leaving the red snapper stock, which is rebounding under 
            the commercial IFQ system, at risk. Additionally, the 
            Commission and the states would then have to develop a new 
            management plan for commercial red snapper, with little or 
            no additional resources. H.R. 3099 seems to provide 
            benefits only to private recreational anglers at the 
            expense of professional fishermen whose entire livelihoods 
            depend on their access privileges.

    <bullet> H.R. 3099 Does Not Provide Any Resources for Data 
            Collection: Current red snapper data collection and stock 
            assessment efforts are limited due to funding and staff 
            resources. H.R. 3099 simply reorganizes the 
            responsibilities of management without providing what 
            improved management actually needs: the funding and human 
            resources to do the necessary data collection and stock 
            assessments.

    In addition to the concerns listed above, I also fully support the 
points outlined in my fellow witness and GSI board member Bob Gill's 
testimony. Mr. Gill and I have served together on the Gulf Council, 
make our livings in the seafood community and understand fully the 
importance of preserving red snapper in the Gulf.
    While drastic management solutions are needed, it is clear that 
programs outlined in H.R. 3099 are not the right approach. In fact, of 
all the red snapper bills introduced during the 113th Congress, very 
little could be improved with passage of any one. On the contrary, most 
of these bills will result in a worsened, not bettered, management 
system.
    In closing, while the Council's process can be tedious and 
cumbersome at times, it does work. The drastic improvements to 
commercial management of red snapper and the new charter-for-hire 
program underway now illustrate that the transparent, regional 
management approach as administered by NOAA and the Gulf Council with 
authority granted under the Magnuson-Stevens Act (MSA) is the most 
effective means to preserve our delicate fishery resources while 
ensuring access for all Americans. The Council is also currently 
discussing the possible benefits of a regional management approach for 
the red snapper private angling community similar to what the East 
Coast is developing for summer flounder. On the East Coast, the 
Atlantic States Marine Fisheries Commission (ASMFC) has divided the 
summer flounder recreational management area into several smaller 
regions, each with their own size and bag limits designed to best meet 
the needs of their respective states. The overall intent of this 
regional management regime is to provide more equity in recreational 
harvest opportunities along the East Coast--an outcome that the Gulf 
Council could also pursue without any action from Congress. In 
addition, my state of Louisiana has also submitted to NMFS a plan to 
follow the summer flounder model for red snapper in state waters, which 
is yet another indication that congressional action here is unnecessary 
at this time.
    Thank you for welcoming my testimony today and I look forward to 
your questions.

                                 ______
                                 

    Mr. Fleming. At this point, we will begin Member 
questioning of the witnesses. To allow all Members to 
participate and to ensure we can hear from all of our witnesses 
today, Members are limited to 5 minutes for their questions. If 
we have additional questions, we may have a second round.
    I now recognize myself for 5 minutes.
    Mr. Cresson, in your opinion would H.R. 3099 still work if 
it only applied to the recreational sector of the red snapper 
fishery? You gave a very inspiring discussion about the 
multigenerational effect of fishing and really sportsmanship in 
general. The slogan of our state is, ``A Sportsman's 
Paradise.'' It is so valuable, and as Secretary Barham so 
eloquently discussed how we put resources into getting it right 
for the constituents in Louisiana. So how would this work for 
recreational anglers?
    Mr. Cresson. Thank you for the question, Congressman 
Fleming. I hadn't thought about it specifically the way you 
asked it--Would it work if it were only for the recreational 
sector? My guess is that since our state in Louisiana and 
apparently the other states as well, have the best data, it 
would work best for all the sectors. So you never hear people 
fuss in Louisiana about the state-run commercial seafood 
businesses because they are very well run. They are very 
accountable. They are very well sustainable. They are doing a 
great job. Those are state run. So as far as whether we should 
separate this out and let red snapper commercially stay with 
the Federal Government and recreational go to H.R. 3099 or to 
the Gulf State Commission, I hadn't thought about it, but it 
seems to me the best data is with the state, so all the sectors 
should go under there. So I think this would work very well for 
recreational fishermen, regardless, because as we have heard 
very clearly here today, the best data is being collected on 
recreational fishermen by the state agencies, boots on the 
ground, biologists at the dock, phone calls, emails after the 
fact. The data is unquestionably better, so certainly H.R. 3099 
would get us to a point where that is the system we are using, 
and it would certainly be a better system than what is going on 
now.
    Mr. Fleming. OK. Thank you.
    In NOAA's testimony, Mr. Rauch noted that under the red 
snapper commercial catch tier system the number of vessels 
participating in the fishery has been reduced by 28 percent. As 
the for-hire sector moves ever closer to a catch tier system of 
management, is there concern that there will be a similar 
reduction in vessels and jobs?
    Mr. Cresson. Absolutely, yes, sir. As a matter of fact, not 
long after the vote at the Gulf Council to approve sector 
separation came out, there were already solicitations going out 
to those in the charter industry to buy their permits or to buy 
their quotas or whatever it might be. So the design of that 
program is to reduce the fleet and reduce the effort. We 
certainly don't want to see that happen to the charter 
industry. You have great gentlemen, like Mr. Green, who are out 
here working hard providing a great opportunity for 
recreational anglers who don't have boats. We need to make sure 
that they are all able to sustain their businesses. And I can 
tell you, I don't know so much about Alabama and Florida, but 
in Louisiana, we have small, single-boat charter captain 
operators that don't necessarily have the resources to put into 
things like electronic reporting. And when people talk about 
the fact that the entire charter industry is in favor of 
electronic reporting on their boats, I can tell you they 
haven't talked to the vast majority of the charter captains in 
Louisiana because none of them that I have talked to are.
    Mr. Fleming. Right. And as I understand, it is quite a 
problem in the charter industry when seasons are so small, so 
short, are unpredictable because oftentimes, the charter 
process takes months for reservations and other things. People 
don't just suddenly walk on a boat in one single day. This is 
something that requires planning.
    Mr. Cresson. Yes. Certainly most of the charter captains in 
Louisiana are booking their trips for summer 2015 right now. 
People are making long travel plans to get down there. They 
can't come on the drop of a hat. When you have 9 days, keep in 
mind, 9 days, 4 of which are weekend days, 5 of which are 
weekdays, it is hard for people to get off during the week and 
go snapper fishing, so you really have only 4 days, and if only 
2 of those are fishable because it is windy or for other 
reasons, you are talking about very few fishable days, very 
hard for charter captains and others to make plans.
    Mr. Fleming. And somehow they have to cover their costs 
just in that brief period of time, the cost of the boat, the 
insurance, the licenses, all the other things that go along 
with that.
    Well, I see my time is up, so I will now recognize the 
Ranking Member for questions.
    Mr. Sablan. Thank you very much, Mr. Chairman, and good 
afternoon, everyone. Let me start with Mr. Gill. I am glad you 
referenced the Federal Duck Stamp, the program that Chairman 
Fleming recently bolstered with the passage of H.R. 5069. You 
mentioned that red snapper management must address the number 
of anglers, the number of trips to be successful. Can the Duck 
Stamp be used as a model for a snapper stamp? Could proceeds be 
used to fund stock assessments much like Duck Stamp funds are 
used for wetland conservation?
    Mr. Gill. Thank you Ranking Member Sablan. I believe it 
could. I think the important factor here is that the discussion 
of the numbers side of the problem, the inequity between the 40 
anglers and the one fish for the 40 anglers needs to be part of 
that discussion, and one approach might be the Duck Stamp 
approach, not necessarily the only way to approach it. But if 
we don't recognize that there are a lot of angler trips looking 
for one fish, we won't ever find a solution.
    Mr. Sablan. So would moving to a snapper stamp system have 
the potential to create the year-round red snapper seasons that 
Mr. Cresson complains private anglers do not have but which 
commercial boats and now charter vessels enjoy. If anglers have 
a certain number of stamps or tags, couldn't they use them any 
time?
    Mr. Gill. Correct. That is one approach that has been 
mentioned. Tags, stamps in some fashion recognizes the number 
problem and attempts to address it and permits the holder of 
the tag or stamp to fish when they would like.
    Mr. Sablan. Mr. Green, would you please discuss the 
benefits of sector separation to the charter fleet in the Gulf 
Coast economy?
    Mr. Green. Yes, sir, thank you for the question, 
Congressman. The benefits would be that the American public 
that relies on the for-hire vessels for access, their 
allocation got locked in. They are no longer at this point 
being squeezed out of the fishery no matter what management 
practice is in place for sector separation. By breaking away 
and giving us our allocation, it helps us to explore different 
management alternatives that might not be accepted in the 
private angling community where as it might benefit our 
businesses and the tourists that frequent our coastal 
communities.
    Mr. Sablan. OK. Would you elaborate please on the 
difficulty of separating red snapper out for regional 
management when your Federal permit covers a number of reef 
fish?
    Mr. Green. Yes, sir. Thank for the question. On my boat, 
anglers catch red snapper, Vermilion, Gag Grouper, Red Grouper; 
it goes on and on. All these species, almost all of them, 
except for one, has a compliant season when you are talking 
about state and Federal. As you know, red snapper doesn't. And 
by moving that to the state commissions, Federal permit holders 
would have an even further disadvantage as our needs in the 
fishery differ from the private angling community. It would 
also add another burden to the for-hire stakeholders as they 
would have to deal with two governing bodies to conduct 
business and representation at those levels. It would also 
undermine the opportunity that the Gulf Council has now given 
us to manage ourselves in a manner which is pliable for all 
for-hire fishermen.
    Mr. Sablan. Mr. Pearce, is the Gulf Council already set to 
consider a regional management concept for red snapper in 
January? And if so, is this legislation necessary, sir?
    Mr. Pearce. Yes. I think regional management has been on 
the table for a year or so now. And part of the problem we had 
was the inability of the states to solve an allocation problem 
among the states. That has been solved now. The states have 
figured out a number, a percentage of the allocation for each 
state, so that throws it back on the table. Something else that 
puts it back on the table is that part of the problem with 
regional management in the past is we needed a three-quarter 
majority vote to delegate the authority for the state.
    Mr. Sablan. So is the legislation we have before us still 
necessary?
    Mr. Pearce. No.
    Mr. Sablan. No. All right. Would you please describe the 
importance of the commercial red snapper fishery to the West 
Coast economy and the benefits it provides to the Nation as a 
whole, and could you make it quick, Mr. Pearce?
    Mr. Pearce. Yes. Real quick. It is clear we have to take 
care of the citizens of this country. The harvesting component 
clearly takes care of the citizens in Chicago, New York, San 
Francisco, as well as the Gulf Coast, but when it comes to the 
Gulf Coast, in New Orleans in particular, no one comes to New 
Orleans to eat a steak. It is a fish. And fish is a very 
important part of the tourism across the whole Gulf Coast of 
the United States. And so it is very important that we have a 
consistent, reliable source for the American public, for the 
restaurants, for the consumers and the retailers, and have one 
that can be fished year around as it has been fished now.
    Mr. Sablan. Thank you, Mr. Chairman.
    Mr. Fleming. The gentleman's time is up.
    The Chair recognizes Mr. Southerland from Florida.
    Mr. Southerland. Mr. Green, thank you for being here. I 
live about 45 minutes from you, so I know you know who I am, 
and I know the Destin fleet. Have you all identified the 28 
percent of your fleet that is willing to go out of business? 
Yes, I didn't think so. Because that is exactly what is going 
to happen, OK, and you know it and I know it.
    Mr. Green. If I may, Congressman, 28 percent of us have 
already gone out of business and that was due to----
    Mr. Southerland. Right. And that was before sector 
separation.
    Mr. Green. An insufficient management plan for our sector.
    Mr. Southerland. So have you identified the additional 28 
percent, once they go into a catch share system, IFQ, have you 
identified the additional 28 percent, on top of the 28 percent 
now that you have already admitted, so now we are up to 56 
percent of family businesses, generational businesses, have you 
identified the additional 28 percent or have you had 28 percent 
volunteer and say, you know what, we are going to take one for 
the team, so we are going to go out of business? Have you done 
that?
    Mr. Green. Congressman, thank for the question.
    Mr. Southerland. I am sure you appreciate that question.
    Mr. Green. It is quite all right. There is the issue----
    Mr. Southerland. It is the answer that is wrong, that is 
not all right. The question may be fine.
    Mr. Green. I would appreciate it if you would listen to my 
answer before you call it wrong.
    Mr. Southerland. Sure.
    Mr. Green. In the for-hire management, in our limited 
access privilege program of permits, we have a number of them 
that aren't necessarily actively fishing in it, so we believe 
that 28, 20, 30 percent of those permits are what we determine 
as laden and possibly not actively in the fishery anyway. So if 
those numbers are being counted against us and we set up a 
registry or a data collection program that proves that, then 
possibly nobody would go out of business, and we would quit 
being penalized for the number of permits that aren't actually 
actively fishing in the fishery.
    Mr. Southerland. Were you in favor of repealing 30(b)?
    Mr. Green. At that time, without Amendment 40 on the table 
and a chance to manage myself, I certainly was, sir.
    Mr. Southerland. So you were in favor of repealing 30(b). 
Were you in favor of sector separation?
    Mr. Green. In the beginning, no, because there were a lot 
of uncertainties, but as we moved into the reduced amount of 
access because of state noncompliant seasons, I moved to find a 
way to manage myself than to rely on others.
    Mr. Southerland. OK, and you and I would agree there. So 
you must have felt somewhat corralled when Mr. Crabtree was 
stated as saying, Hey, if we repeal 30(b), we will never get 
sector separation. You must have felt like maybe the healthiest 
horse in the glue factory as you moved toward the refusal and 
the change in direction by Mr. Crabtree to repeal 30(b)?
    Mr. Green. I appreciate that. That is an interesting way of 
putting it. I didn't feel corralled. I felt like it was a time 
to move forward, and 30(b) offered, it was not a solution for a 
long-term plan. It was a short-term solution to an access 
problem that we were getting pushed out of. Amendment 40 to me, 
after digesting it and seeing exactly how that would play out, 
that became more apparent to me that that might be a good thing 
since the growth of the user groups of the private recreational 
anglers have become more politically expedient to push for a 
bigger season for them and us get pushed out. So it was a 
developing thing. I don't know if it was corralled, but it was 
definitely a feeling of needing to take some action to assert 
ourselves, and to me, Amendment 40 did that by securing the 
allocation for our businesses.
    Mr. Southerland. I have talked to commercial fishermen who 
brokered the deal back in 2007, and you are on the similar 
path. We don't have to relive history, and if we ignore 
history, we are destined to repeat it. You are moving down the 
same path as commercial fishermen, and they all used the word 
``coral'' back in 2007. And you say, move on and it is time for 
a new day. I don't think the 56 percent or the 28 that have yet 
to be identified would admit that.
    I am curious, do you own catch shares?
    Mr. Green. Catch shares to me is a very broad term. My plan 
and what I have put forward is a permitted fishing quota where 
an allocation would be designated----
    Mr. Southerland. Do you have IFQs?
    Mr. Green. I would not want an IFQ. I would not want an 
individual to take ownership of the resource. Now, as owning a 
permit and being accessed to that, I believe that the 
allocation should be tied to the permit, and as that permit is 
a privilege, it can be taken away, as where an IFQ program, if 
I had IFQ and passed away, my wife would now be the owner of it 
and then our children and their children. I don't believe the 
ownership of a resource is a good thing, but I believe that we 
can develop a plan that will put the allocation with the 
permit, and, therefore, that permit could be sold to the next 
generation to ensure the generational transfer of this industry 
or, in a bad situation, be totally removed and expire and those 
fish be put back into a pool that the ones that are actively 
fishing can participate in.
    Mr. Southerland. I see my time is expiring, but I think you 
just admitted that the Government actually owns the property of 
the fish.
    Mr. Green. I believe the people which make the Government 
own the fish, sir.
    Mr. Southerland. I yield back.
    Mr. Fleming. The gentleman yields back.
    Mr. Jolly is recognized.
    Mr. Jolly. No questions.
    Mr. Fleming. You do not have any questions?
    Mr. Jolly. I do not have any questions. I would be happy to 
yield my time to Mr. Southerland, but I would leave it to the 
discretion of the Chair.
    Mr. Fleming. Basically, what we are going to do is offer 
another round. We are slow adjourners around here. I think what 
we will do at this point is have another round but just open it 
up to whatever lingering questions. I just have one question, 
and I will just offer to other members to ask questions as 
well. So I recognize myself for one question.
    Again, Mr. Cresson, several witnesses cite the growing 
recreational sector and the increasing need for more fish for 
this sector. Several witnesses also cite the demand for 
commercially caught red snapper at Gulf restaurants and hotels. 
While H.R. 3099 would protect the current allocation of red 
snapper between the commercial and recreational sector for 3 
years, would it be better if this legislation included a 
schedule for increasing the recreational quota as the overall 
biomass increased, as the Council is currently debating, while 
maintaining a floor for the commercial sectors quota?
    Mr. Cresson. Well, that is a good question. And, again, it 
is one that I haven't put a lot of thought into, but I can tell 
you this, I want what is best for our seafood industry and for 
our recreational industry, of course. So if the plan you are 
discussing here would be the best way to make sure we have 
sustainable seafood on our tables in Louisiana and across the 
country, then that is great. I love Louisiana seafood. I love 
going to restaurants and making sure that they have good, fresh 
Gulf-caught seafood. I have never walked out of a restaurant 
because they didn't have red snapper that day, but if they had 
grouper or amberjack or mahi, then I am just fine. But, 
nonetheless, we need to make sure that whichever plan we put in 
place, and if it is H.R. 3099, that it includes at its core 
using the best available data to make all those decisions. I 
hope that answers your question.
    Mr. Fleming. Sure. We will go down the panel.
    Mr. Gill, would you like to comment?
    Mr. Gill. I think it is of the utmost importance, as Mr. 
Cresson said, that we maintain the equity for all factors. That 
says that there is food for America's consumers, because 98 or 
so percent of American red snapper are consumed domestically. 
Likewise there needs to be as much as possible a quota 
available for private recreational and charter-for-hire. So 
maintaining that equity and that balance is difficult, and 
obviously, the perspectives of some are different than others, 
but if that plan accomplishes that, then we can support that.
    Mr. Fleming. Captain Green?
    Mr. Green. I believe that, as Mr. Gill stated, I believe 
there needs to be a balance. And I believe that seafood is a 
major protein that is desired across the country. Like Mr. 
Cresson, I have never walked out because red snapper wasn't on 
the menu, but, then again, I get access to red snapper more 
than most. I think that when we approach these issues, that 
equality be brought out and make sure that each sector has an 
acceptable amount and that nobody is getting gluttonous in the 
allocation.
    Mr. Fleming. Mr. Pearce?
    Mr. Pearce. Thank you, Mr. Chairman. You know, even as it 
may seem in the harvesting component, we still don't have 
enough fish. We are always searching for more production. Just 
as a recreational fisherman needs to catch more fish than what 
he has. So any change in that allocation would not help us in 
that end. Also the Socioeconomic Committee on the Council 
basically said that any reallocation isn't economically 
feasible. It doesn't help. It doesn't do anything. So I really 
think that the best way for us to do this is to develop a 
better management scheme for the private rec.
    Mr. Fleming. Thank you. That concludes my questions.
    Ranking Member, Mr. Sablan?
    Mr. Sablan. Thank you, Mr. Chairman.
    Mr. Pearce, as a current member of the Gulf Council, can 
you discuss the different responsibilities of the Council and 
the Gulf States Marine Fisheries Commission, and what resources 
and authorities does the Council have that the Commission 
lacks?
    Mr. Pearce. It is clear the Council has regulatory 
authority. It has enforcement authority. It has a lot of the 
authorities that are necessary to manage any fishery. It has 
the ability to develop it. Whereas I am a big proponent of the 
Gulf States Marine Fisheries Commission, they are basically a 
depository, and they take ownership of all the data in the 
Gulf, and they make sure that that data gets used correctly 
into the state and into the Federal management system. They do 
some minor stock assessment work, but clearly, they are not 
geared up to do the job that the Council is doing right now. 
And I think that with H.R. 3099, that responsibility becomes 
even tougher because in a couple or 3 years, everything is 
going to change. And then the Magnuson may not be considered at 
that time. The harvest component can be done away with at that 
time. So I think that the clear focus of Gulf States Marine 
Fisheries Commission is to advise the states as to what to do 
to be a depository and control the data as it comes in from the 
different states through the states' organizations and through 
the trip ticket programs that all the states happen to have 
right now that help us manage those fisheries, but they are not 
set up or geared up or financially sound enough or have the 
ability to do what the Council can do.
    Mr. Sablan. Thank you, Mr. Pearce.
    Mr. Gill, even if with its regulatory authority and 
additional staff, the Atlantic States Marine Fisheries 
Commission has struggled to manage some stock sustainability, 
particularly striped bass, which is on the brink of becoming 
overfished again, H.R. 3099 would exempt the red snapper 
fishery from requirements under the Magnuson-Stevens Act, such 
as ending overfishing, setting annual catch limits and the 
rebuilding the stock. Would this help or hurt the fishery?
    Mr. Gill. Thank you, Ranking Member Sablan. I believe it 
would hurt the fishery because the bill currently has language 
that compliance with the Magnuson-Stevens Act is to the extent 
practicable. It doesn't define what that extent is. So, with 
the exception of the definitions that define overfishing, et 
cetera, the compliance with the Magnuson-Stevens Act, as you 
mentioned for annual catch limits or any of those sorts of 
things, could not be held. And Magnuson-Stevens Act has 
demonstrated that, if managed properly, the species under MSA 
are fully sustainable. You take sections away from that, and 
you can no longer make that claim.
    Mr. Sablan. All right. You also mentioned in your testimony 
that the charter sector is working toward providing real-time 
verifiable data on snapper landings. The commercial sector 
already lost this, but private anglers are not required to and 
have shown little interest in doing so, even though there are 
complaints about weak data. Do you think that private anglers 
have a responsibility to contribute to data collection efforts?
    Mr. Gill. I think all users of the resource have that 
responsibility, be they for-hire, be they harvesting sector, be 
they private recreational fisherman.
    Mr. Sablan. Thank you. My last question, Mr. Chairman, is 
for Captain Green. I am sure that there are costs to running a 
business, charter business or for-hire, plus for gasoline, 
maintenance of a boat, slip fees, insurance and everything, but 
are only red snappers caught by recreational fishermen, or are 
other fish also caught by recreational fishermen? Do they only 
go for red snappers or for just recreation, or do they go for 
other fish? It looks like if we stop red snapper fishing, if we 
reduce it down to 9 days, that the whole thing is going to 
collapse?
    Mr. Green. Yes, sir, we do catch other fish, and it is 
important to also collect the data on those, too. I run a head 
boat, and I am required by the National Marine Fisheries to 
report my data weekly. There are 68 of us out of 1,100 that do 
that. It is extremely important. There is more to the Gulf than 
red snapper, but it is a cornerstone fishery. And it is 
important that we make sure that we collect data properly on 
all of it, and I think the data collection is really polarized 
with the red snapper because of how much it is sought after by 
the Gulf entirely.
    Mr. Sablan. OK. Thank you.
    Mr. Chairman, my time is up. I think this is going to be 
the last hearing we have in this Congress. Right?
    I want to thank everybody. It is been a great 2 years, Mr. 
Chairman.
    Actually, I have learned so much about red snapper. I have 
seen some of the pictures Mr. Southerland brought. Beautiful 
fish. I think I am going to find a way to come down to 
Louisiana. Maybe not Florida yet, but Louisiana, just to try 
some of the fish. Seriously, I am from the Islands, and your 
fish look so wonderful. And in the islands, we only catch fish 
to eat. We don't catch and release. We catch and eat. Thank 
you.
    Mr. Fleming. Thank you. I want to thank the Ranking Member 
for his great work and friendship, and we visited his beautiful 
Saipan just the other day and enjoyed that, and you are welcome 
to Louisiana any time. Come see us, and we will show you a good 
time and a lot of good eating fish.
    The Chair now yields to the gentleman from Florida. Before 
I yield to him, I also want to say to him how much we 
appreciate his service here. He is going to be leaving us for a 
little while, but we think we may see him back sooner than 
later, and I just want to thank you for this being the last 
hearing of the 113th Congress, all the great work and personal 
friendship that I have enjoyed with you, Steve Southerland.
    And I yield to your time.
    Mr. Southerland. Mr. Chairman, thank you.
    It has truly been an honor and I want to say to you, you 
have done a great job, Mr. Sablan.
    Thank you. You are a wonderfully kind man, very generous, 
very kind, and want always to do the right thing.
    So thank you very much for the spirit in which both of you 
conduct yourself in leading our discussions here.
    I want to ask a couple more questions, and I want to say I 
have reserved judgment on the bill, the H.R. 3099. So, contrary 
to what some that own catch shares would like to say, I am not 
on this bill yet, but I do feel like asking some questions.
    And, you know, Mr. Green, you and I had a healthy exchange 
here a few minutes ago, and I want to ask you--I want to ask 
you and Harlon, who I have enjoyed working with over the last 
several years, what happens to a $5.50 pound price for red 
snapper if a healthy fishery is determined in the South 
Atlantic and the red snapper is opened up? What effect would 
that have on a $5.50 price?
    Mr. Green. I believe that is you.
    Mr. Pearce. Well, supply and demand, of course, is what 
affects any market you get into. So any increase in supply 
could affect price, but the demand for snapper is so strong 
right now that I don't think you are going to see a whole lot 
of price problems or price drops with any snapper fisher right 
now. It would have to get a whole lot more production to really 
affect this price with what is going on right now.
    Mr. Southerland. But, I mean, if there is great evidence 
that people are chumming snapper to the top and catching them 
on the top water lures in the South Atlantic, and even though 
we haven't--it has been closed for 5 years and, you know, we 
have a weekend to fish in the South Atlantic, one would have to 
conclude that there is a reason for that.
    Mr. Pearce. A reason for the prices?
    Mr. Southerland. Well, no, no, no. I mean, there are some 
that certainly could speculate that there is a reason for not 
opening up or even having a survey in the South Atlantic. So I 
know it expands beyond where you currently are in the Gulf, but 
it is a South Atlantic issue as well and there seems to be 
great aggravation--and there seems to be, I guess, some 
economics at play here that--listen, I am assuming we all are 
somewhat familiar with economics. If you are in business, you 
certainly are. Supply and demand. And if the numbers grow, if 
you have greater numbers of fish going into a market, typically 
the market price of that fish will be decreased, that seems to 
be a law of nature as well as a law of economics. Is that true?
    Mr. Pearce. If things are as they are, you are probably 
right, but things aren't going to be as they are, Mr. 
Southerland.
    First off, there are different programs in play right now. 
The Gulf group that is doing a tag fishery for red snapper that 
is in high demand, high demand, and we are looking at different 
mechanisms to manage our fisheries in the Gulf in a different 
way. We are not in the commodity marketplace with this fishery. 
We don't want to be in the commodity marketplace with any of 
our fisheries. So we have to create better programs that 
continue to increase the price to continue to get it done, and 
we are doing that with specialized programs.
    Mr. Southerland. But you have to admit that there are some 
that are inside of the fisheries world that have expressed the 
desire for a commodities market.
    Mr. Pearce. I can understand that. I really do.
    Mr. Southerland. Well, no. They are there. Correct? You 
admit that.
    Mr. Pearce. Oh, yes. I mean, in every market there is, but 
there is a commodity market of different fish and different 
species, but yet with red snapper, as prized as it is by 
everybody at this table, our ability to not change that and 
make it like with the Gulf Wild Program that it is something 
that is special, that something that is better, which it really 
is. We only catch 2 percent of the fish in the Gulf of red 
snapper. That is all--2 percent. So we are talking about a 
fishery that is 2 percent of what we do across the board. All 
of us here, recreationally and commercially, in the harvesting 
sector. So our job, not only with snapper, with all of our 
fisheries, shrimp, you name it, is to take it to a different 
level and to make sure that our fishermen maintain the price 
levels no matter what happens, and you are going to have a 
commodity market for a lot of stuff, but you still have to be 
able to develop that market that maintains the price structure 
that we have to have for our fishermen.
    In Galveston, for instance, right now there sushi bars that 
are demanding 2-hour-old fish, and they are paying $15 a pound 
for that 2-hour-old fish. So there are differences and 
different ways to create markets, create different things, and 
in this country, our goal is to do a better job with what we 
have and to try and stay as far out of the commodity market as 
we can.
    Mr. Southerland. What I am saying, though, is I would say 
if you have a sushi market that is going to pay you premium 
dollar for a red snapper, there are some in this industry that 
are happy to take that red snapper away from a recreational 
fisherman like Mr. Cresson down here to line their pockets to 
sell that fish to the sushi man.
    Mr. Pearce. I disagree. I don't want----
    Mr. Southerland. Now, come----
    Mr. Pearce. Mr. Southerland, you and I are good friends, 
but I am going to tell you, I don't want to take a fish out of 
his pocket. I want to put more in his pocket, and my goal as a 
harvesting component is to do our job and do it correctly and 
to help Mr. Cresson, help him have a better day and help him 
catch more fish.
    Mr. Southerland. One thing I have learned here, Harlon----
    Mr. Pearce. Yes.
    Mr. Southerland [continuing]. You are my friend.
    Mr. Pearce. Yes. You are right. We are going to go hunting.
    Mr. Southerland. Four years. Follow the money.
    I yield back.
    Mr. Fleming. Gentleman yields back. Mr. Jolly still has no 
questions.
    Therefore, I just want to say before closing, again, to 
remind everyone, this is our last hearing in the 113th 
Congress, and I want to thank, first of all, our witnesses for 
all of the time, travel, investment that you have made both 
into this issue and also in helping us learn more about what is 
really a very complex issue, one in which we all agree that 
there are more red snapper than we think there are by way of 
many ways of measuring that, and we need to have more access to 
that, and that states need to have more input into this.
    I also want to give a special thanks to our staff, our 
committee staff on both sides of the aisle, for doing a 
splendid job throughout the 113th Congress and look forward to 
working with you all in one capacity or another at that time.
    I also ask unanimous consent to include in the hearing 
record the following documents: a letter from the Congressional 
Sportsmen's Foundation and a letter from the American 
Sportfishing Association.
    There being no objection, so ordered.
    I want to thank Members and staff for their work today, and 
wish everyone happy holidays going forward, and with that there 
is no further business.

    [Whereupon, at 12:46 p.m., the subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

                 American Sportfishing Association,
                                            Alexandria, VA,
                                                  December 2, 2014.

Hon. John Fleming, Chairman,
Hon. Gregorio Kilili Camacho Sablan, Ranking Member,
House Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs,
Washington, DC 20510.

    Dear Chairman Fleming and Ranking Member Sablan:

    On behalf of the nation's recreational fishing industry, the 
American Sportfishing Association (ASA) offers its support for the Gulf 
of Mexico Red Snapper Conservation Act of 2013 (H.R. 3099). This bill 
will help to ensure the long-term conservation of Gulf of Mexico red 
snapper while concurrently improving the economies of the Gulf states.

    As the nation's recreational fishing trade association, ASA 
represents sportfishing manufacturers, retailers, wholesalers, and 
angler advocacy groups, as well as the interests of America's 46 
million recreational anglers. ASA also safeguards and promotes the 
social, economic, and conservation values of sportfishing in America, 
which result in a $115 billion-a-year impact on the nation's economy.

    With a fishery characterized as more robust than ever before, 
federal management methods have nevertheless resulted in inexplicably 
and severely shortened recreational red snapper seasons, causing 
substantial harm to the economies of Gulf coast communities. 
Consequently, in 2014, all five Gulf States were non-compliant with 
federal regulations on red snapper in state waters and have requested 
that state management of the red snapper fishery replace the current 
federal management.

    State management would result in improved management of Gulf red 
snapper for the betterment of the fishery and the entire regional 
economy in which recreational fishing contributes more than $10 billion 
in annual economic activity.

    On behalf of the recreational fishing industry, I respectfully 
request that you support H.R. 3099 and work toward its passage.

            Sincerely,

                                              Mike Leonard,
                                    Ocean Resource Policy Director.

                                 ______
                                 

              Congressional Sportsmen's Foundation,
                                            Washington, DC,
                                                  December 1, 2014.

Hon. John Fleming, Chairman,
Hon. Gregorio Kilili Camacho Sablan, Ranking Member,
House Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs,
Washington, DC 20515.

    Dear Chairman Fleming and Ranking Member Sablan:

    As president of the Congressional Sportsmen's Foundation (CSF), I 
would like to thank you for holding a hearing on the Gulf of Mexico Red 
Snapper Conservation Act (H.R. 3099) and for the opportunity to discuss 
the important issue of red snapper management that effects millions of 
recreational anglers. CSF, which works with the largest bipartisan, 
bicameral caucus in the U.S. Congress, supports H.R. 3099, which 
currently has twenty bipartisan cosponsors and aligns with a call from 
four Gulf States Governors for Congress to take action to reverse the 
damaging economic impacts currently resulting from an ``irretrievably 
broken'' system of federal management of Gulf red snapper.

    Despite the healthiest population of red snapper on record, June 1 
of this year signaled the start of the shortest federal recreational 
red snapper season in the history of the Gulf of Mexico. The inability 
of the National Marine Fisheries Service and the Gulf of Mexico 
Fisheries Management Council to provide angling opportunities 
proportional to the rapid growth of the red snapper population is 
symptomatic of a fatally flawed federal management system that is 
systematically failing Gulf Coast anglers and the communities they 
support.

    Ultimately, the on-going red snapper debacle in the Gulf is the 
result of a larger problem with the Magnuson-Stevens Fishery 
Conservation and Management Act (MSA). Currently, MSA's overall 
management system is designed exclusively for commercial fishing and 
lacks a formal process and incentive to update allocations based on the 
best value for our nation. Collectively, this management strategy 
continues to penalize the growing recreational sector and stifles the 
otherwise overwhelmingly positive economic impacts recreational anglers 
have on local communities.

    H.R. 3099 offers the best solution by establishing a coordinated 
Gulf States partnership for red snapper management through which the 
states would fully comply with a management plan approved and adopted 
by the Gulf States Marines Fisheries Commission (GSMFC). The 
partnership would be similar to how the Atlantic States Marine 
Fisheries Commission manages striped bass and how the GSMFC 
cooperatively manages red drum and spotted seatrout. Like these 
examples, state-based fisheries management has proven to be far more 
effective than federal management at balancing the needs of the 
commercial and recreational sectors, while ensuring sound species 
conservation.

    Finally, H.R. 3099 includes provisions requiring that the 
Commission develop and execute a strategy for increasing the number of 
stock assessments, improve interstate collaboration in the collection 
and utilization of fishery data, and work with the Secretary of 
Commerce to develop an economic impact report for the red snapper 
fishery on a biennial basis. Taken as a whole, these legislative 
proposals will result in improved management of Gulf red snapper for 
the betterment of commercial and recreational fisheries, the entire 
Gulf Coast economy, and the nation.

            Respectfully,

                                                Jeff Crane,
                                                         President.

                                 ______
                                 

                                                  December 3, 2014.

Hon. Doc Hastings, Chairman,
Hon. Peter DeFazio, Ranking Member,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Chairman Hastings and Ranking Member DeFazio:

    As commercial fishermen from across the Gulf of Mexico, we are 
writing to share our perspective on two pieces of legislation 
introduced in Congress that would have a significant impact on our 
fishery and our industry. In particular, we are writing in opposition 
to H.R. 3099, the Gulf of Mexico Red Snapper Conservation Act of 2013, 
and in support of H.R. 3063, the Healthy Fisheries through Better 
Science Act.
    The current management of the commercial red snapper fishery is 
working. Not long ago we were restricted to fishing a few short weeks 
of the year on days set by regulators, and the red snapper population 
was in decline. Today, we fish year round and the fish stock is 
rebounding. This flexibility allows us to provide fresh, quality 
seafood to meet growing consumer demand for fresh U.S. fish. We also 
provide better paying jobs and are not forced to put ourselves or our 
crews at risk fishing during dangerous storms. This success is critical 
to our industry because red snapper is such an important species to our 
businesses.
    Red snapper and all other fisheries that occur mainly in offshore 
Federal Gulf waters are currently managed by the Gulf of Mexico Fishery 
Management Council (the Council) as authorized by Congress. However, 
H.R. 3099 would move the responsibility for red snapper management to 
the Gulf States Marine Fisheries Commission (the Commission). While the 
bill is intended to increase the role of states in management, it would 
simply create more layers of government. Sixteen of the 17 voting 
members of the Council are already nominated or appointed by Gulf state 
governors. Moving management to the Commission would not increase the 
states' role, but it would disrupt the successes we have had because 
the Commission is not as well equipped to manage offshore fisheries as 
the Council. In addition, H.R. 3099 would strip the conservation and 
accountability requirements put in place under the Magnuson-Stevens Act 
(MSA). This would hurt all Gulf fishermen and could take us back to the 
days of overfishing. Finally, we are deeply concerned with a provision 
in the bill that would allow for the reduction of commercial red 
snapper quota. This is a critical species for our industry since the 
Gulf's recreational fishermen already take home 80% of the most popular 
fish in the Gulf, including overwhelming majorities of amberjack, red 
drum, speckled trout, king mackerel and triggerfish. The current 
allocation of red snapper quota is shared roughly 50-50 between the 
commercial and recreational sectors and we believe it should stay that 
way.
    Reforms are needed to improve the performance of the recreational 
red snapper fishery and the benefits it can receive from the rebuilding 
population. Delegating more responsibility to state agencies could be 
the right approach for recreational fishermen and the Council is 
currently considering a proposal (Amendment 39) to do that. We would 
look forward to working with you and your committee if our experience 
could assist in exploring options and making these difficult decisions. 
However, we strongly believe that the commercial industry should remain 
under the oversight of the Council.
    Instead, we ask Congress to adopt H.R. 3063, the Healthy Fisheries 
through Better Science Act, sponsored by Representative Rob Wittman 
(VA). This bill maintains the conservation standards in the MSA, 
requires the Secretary of Commerce to set a schedule for stock 
assessments and ensures that fishermen, academics and other experienced 
parties contribute to the data collection and analysis process. H.R. 
3063 would improve the information available to managers and fishermen, 
and we urge Congress to approve it.
    Thank you for the opportunity to share our views on these important 
issues. We look forward to working with you.

            Sincerely,

                                             Buddy Guindon,
                   Gulf of Mexico Reef Fish Shareholders' Alliance.

                                              Jim Zurbrick,
                                                  Fish for America.

                                               Glen Brooks,
                                      Gulf Fishermen's Association.

                                              Wayne Werner,
                   Gulf Coast Professional Fishermen's Association.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

        City of Destin, Florida, Economic Impact Analysis of 
        Charter Fishing and Recreational Boating Along the 
        Destin Harbor, Submitted for the Record by Captain Jim 
        Green

                                 <all>
</pre></body></html>
